<html>
<title> - COMBATING TERRORISM: TRAINING AND EQUIPPING RESERVE COMPONENT FORCES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  COMBATING TERRORISM: TRAINING AND EQUIPPING RESERVE COMPONENT FORCES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2004

                               __________

                           Serial No. 108-211

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2004

96-409 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 11, 2004.....................................     1
Statement of:
    Hanlon, Lieutenant General Edward, Commandant, Marine Corps 
      Combat Development Command; Lieutenant General Roger C. 
      Schultz, Director, Army National Guard; Lieutenant General 
      James R. Helmly, Chief, Army Reserve; and Brigadier General 
      Louis W. Weber, Director of training, U.S. Army............    83
    Neill, First Sergeant Gerald G., 323 Military Intelligence 
      Battalion, U.S. Army Reserve, Maryland; Staff Sergeant Juan 
      SanchezLopez, 2nd Battalion 23rd Marines, Reserves; 
      Specialist Michael Tanguay, 143rd Military Police Co., 
      National Guard, Connecticut; Lieutenant Colonel Steve J. 
      Novotny, 530th Military Police Battalion, U.S. Army 
      Reserve, Nebraska; Andrew F. Krepinevich, executive 
      director, Center for Strategic and Budgetary Assessments; 
      and Major General (ret.) Richard C. Alexander, president, 
      National Guard Association of the United States, Center for 
      Strategic and Budgetary Assessments........................     6
Letters, statements, etc., submitted for the record by:
    Alexander, Major General (ret.) Richard C., president, 
      National Guard Association of the United States, Center for 
      Strategic and Budgetary Assessments, prepared statement of.    57
    Hanlon, Lieutenant General Edward, Commandant, Marine Corps 
      Combat Development Command, prepared statement of..........    85
    Helmly, Lieutenant General James R., Chief, Army Reserve:
        Information concerning processing days...................   156
        Prepared statement of....................................   106
    Krepinevich, Andrew F., executive director, Center for 
      Strategic and Budgetary Assessments, prepared statement of.    41
    Neill, First Sergeant Gerald, 323 Military Intelligence 
      Battalion, U.S. Army Reserve, Maryland, prepared statement 
      of.........................................................     9
    Novotny, Lieutenant Colonel Steve J., 530th Military Police 
      Battalion, U.S. Army Reserve, Nebraska, prepared statement 
      of.........................................................    31
    SanchezLopez, Staff Sergeant Juan, 2nd Battalion 23rd 
      Marines, Reserves, prepared statement of...................    16
    Schultz, Lieutenant General Roger C., Director, Army National 
      Guard, prepared statement of...............................    98
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Tanguay, Specialist Michael, 143rd Military Police Co., 
      National Guard, Connecticut, prepared statement of.........    22
    Weber, Brigadier General Louis W., Director of training, U.S. 
      Army, prepared statement of................................   120


  COMBATING TERRORISM: TRAINING AND EQUIPPING RESERVE COMPONENT FORCES

                              ----------                              


                         TUESDAY, MAY 11, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2154, Rayburn House Office Building, Hon. Edward Schrock 
(acting chairman of the subcommittee) presiding.
    Present: Representatives Schrock, Shays and Watson.
    Staff present:: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy analyst; Robert A. 
Briggs, clerk; Richard Lundberg, detailee; Kristin Amerling and 
Andrew Su, minority professional staff members; Jeff Baran, 
minority counsel; and Jean Gosa, minority clerk.
    Mr. Schrock. This hearing will come to order.
    A quorum being present, the Subcommittee on National 
Security, Emerging Threats and International Relations hearing 
entitled, ``Combating Terrorism: Training and Equipping Reserve 
Component Forces'' is called to order.
    Let me first thank all the witnesses for their time today 
in helping us address and improve a program that is vital to 
the men and women who put themselves in harms way for our 
country. As one of just a handful of military retirees serving 
in Congress, I believe I have a unique perspective and 
sensitivity to this issue.
    This war in Iraq and against terrorism has been personal to 
me since the beginning and has hit home in a very real way in 
the past few weeks with the deaths of military members from the 
district I am privileged to represent. I am sure I do not need 
to tell any of today's witnesses that it makes no difference to 
the enemy whether or not you are active duty or a Guard or 
Reservist. All of these men and women are placed in harms way 
without prejudice. Clearly it is our duty to ensure each and 
every soldier, airman, sailor, Marine and Coast Guardsman, 
regardless of active or reserve status is adequately equipped, 
trained and prepared to the highest degree possible to enter 
any war zone be it in Iraq, Afghanistan or anywhere we find our 
folks in harms way. Anything else is simply unacceptable.
    I recognize that utilization of the Guard and the Reserve 
military is at a pace we have not experienced in over 50 years. 
This has put tremendous pressure on the Pentagon to make 
everything come together. I also recognize we have had major 
obstacles in meeting these requirements, that many have been 
overcome, but that still more remain.
    I look forward to hearing from these witnesses today on 
what remains to be accomplished, and what recommendations they 
have to better help us meet these needs. I certainly expect 
they will address whatever inadequacies remain and explain what 
has been done or is being done to rectify such issues.
    I would like to recognize the chairman of this 
subcommittee, Mr. Shays, for any opening comments he might 
have.
    Mr. Shays. Thank you, Mr. Chairman.
    National Guard and reserve units collectively called 
``Reserve Component forces'' constitute an indispensable 
element of our national military power. No longer a rarely 
called upon supplement to the active force, they bring skills 
and specialties integral to modern warfare fighting, post-
conflict stabilization and peacekeeping.
    It appears many RC units, still find themselves at the 
short end of the supply chain unable to train as they fight for 
new and evolving missions in challenging environments. 
Shortages of first-quality body armor, too few shielded 
Humvees, and limited pre-mobilization access to mission-
specific training facilities have challenged Guard and Reserve 
unit effectiveness and put men and women at risk.
    We asked RC veterans of recent deployments and their 
Pentagon leadership to describe how the hard-won lessons from 
today's dynamic conflicts are applied to the equipment and 
training needs of the total force, particularly the Guard and 
Reserves. We asked how doctrine tactics and material are being 
adapted so deploying forces will be protected and will prevail 
against improvised explosive devices and other emerging 
threats.
    Ironically, the military occupational specialties like 
civil affairs, once regulated by cold war planners to Reserve 
component units, are proving essential on the front lines 
today. The policing skills many civilians bring to their 
military duties are in high demand on city streets from here to 
Baghdad. These units no longer are an extra element of the 
force package, but highly valuable and perishable assets that 
should be as well supported and judiciously deployed as their 
active duty components.
    Rick helped teach us that lesson. Army Reserve Staff 
Sergeant Richard S. Eaton, Jr., from Guilford, CT, voluntarily 
deployed to the Iraqi theater with the 323rd Military 
Intelligence Battalion. Before he died from apparent heat-
related causes last August, he wrote to ask why members of his 
unit were activated twice in 2 years without required time at 
home? Why were RC personnel deemed ``mission essential,'' 
rushed to Kuwait only to find there was no mission? Meanwhile, 
was homeland security needlessly put at risk by their departure 
from the police departments, law enforcement units and 
intelligence agencies they left behind? His service, his 
dedication, his sacrifice compel us to pursue his questions 
about the preparation and tasking of the many thousands of men 
and women like Rick who put their Nation first and have every 
right to expect their national military leadership to 
reciprocate.
    This hearing is part of a sustained examination of National 
Guard and Reserve readiness issues by the Government Reform 
Committee. Past reports and testimony brought needed attention 
to mobilization pay errors, medical screening and structural 
strains caused by growing tensions between RC units' global 
combat and homeland security missions.
    As is our practice, we will hear first from veterans 
service members whose personal experiences and insights always 
prove invaluable to our oversight. We deeply appreciate that 
our distinguished second panel of Pentagon witnesses agreed to 
waive their customary right to open the hearing. Thanks to 
their forbearance, our subsequent discussion will be better 
grounded and more meaningful.
    Thank you all for being here. We look forward to hearing 
your testimony.
    [The prepared statement of Hon. Christopher Shays follows:]


    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Thank you, Mr. Chairman.
    It is customary that we swear our witnesses if you will 
please rise.
    [Witnesses sworn.]
    Mr. Schrock. Our first panel members this afternoon are: 
First Sergeant Gerald Neill, 323 Military Intelligence 
Battalion, U.S. Army Reserve, Maryland; Staff Sergeant Juan 
SanchezLopez, 2nd Battalion 23rd Marines, Reserves; Specialist 
Michael Tanguay, 143rd Military Police Co., National Guard from 
the chairman's home State of Connecticut; Lieutenant Colonel 
Steve J. Novotny, 530th Military Police Battalion, U.S. Army 
Reserve, Nebraska; our good friend Dr. Andrew F. Krepinevich, 
Executive Director, Center for Strategic and Budgetary 
Assessments; and Major General (Ret.) Richard C. Alexander, 
president, National Guard Association of the United States, 
Center for Strategic and Budgetary Assessments. We are 
delighted to have all of you here.
    First Sergeant Neill, the floor is yours.

  STATEMENTS OF FIRST SERGEANT GERALD G. NEILL, 323 MILITARY 
  INTELLIGENCE BATTALION, U.S. ARMY RESERVE, MARYLAND; STAFF 
    SERGEANT JUAN SANCHEZLOPEZ, 2ND BATTALION 23RD MARINES, 
  RESERVES; SPECIALIST MICHAEL TANGUAY, 143RD MILITARY POLICE 
 CO., NATIONAL GUARD, CONNECTICUT; LIEUTENANT COLONEL STEVE J. 
 NOVOTNY, 530TH MILITARY POLICE BATTALION, U.S. ARMY RESERVE, 
NEBRASKA; ANDREW F. KREPINEVICH, EXECUTIVE DIRECTOR, CENTER FOR 
 STRATEGIC AND BUDGETARY ASSESSMENTS; AND MAJOR GENERAL (RET.) 
RICHARD C. ALEXANDER, PRESIDENT, NATIONAL GUARD ASSOCIATION OF 
     THE UNITED STATES, CENTER FOR STRATEGIC AND BUDGETARY 
                          ASSESSMENTS

    Sergeant Neill. I would like to begin my testimony with a 
silent moment recognizing the loss of life of our service 
members in Iraq. I want to particularly recognize Staff 
Sergeant Richard S. Eaton, Jr., from Bravo Co. 323 Military 
Intelligence Battalion, U.S. Army Reserves. He was a soldier 
and my friend, and he died in Iraq.
    [Moment of silence.]
    Sergeant Neill. Thank you for this opportunity to testify 
before you here today. You have my written testimony and I have 
to limit my time so I can only give you the highlights.
    I am a First Sergeant from Bravo Co. 323 Military 
Intelligence Battalion. I have 30 years of service. I have 
experience in team building, unit building and training. I have 
spent many years of working and developing sources and 
information in the Metropolitan Police Department in 
Washington, DC.
    MI units work as teams. Solid teams contain a mix of young 
soldiers fresh from school and older soldiers, some with 
previous job skills with infantry training, motor training, 
supply, drill sergeants, communications, civilian street police 
experience are excellent pluses to any team. In the field in 
intense situations, they are the ones who stand above and carry 
the team to safety. We have a shortage of sworn officers who 
are their officer team leaders and they are the officer team 
builders.
    I believe soldiers fight as they train and that every Army 
trains for the next war based upon lessons learned from the 
last. If we accept this, we must look at training in two ways, 
premobilization which is basic training, military occupation 
skills, leadership training and unit training and second, 
mobilization. Pre-mobilization training is adequate except at 
the unit training level. Unit training and annual training time 
is too often used up with administrative functions or other 
distractions. Here is where team building takes place. Six 
soldiers make a team and these teams may deploy in either 
tactical or non-tactical situations.
    A major problem for us was vehicle care and use 
requirements that take up one quarter of a drill weekend. The 
stated time allotment would more than double if the driver 
requirements were followed to the letter. Our unit avoided this 
requirement by turning our vehicles into sites and since we 
didn't have our vehicles, we did not have our radios and they 
were not mounted. Radio communication was a major problem for 
us in Iraq. While active duty units came to the theater with 
satellite phones and can use them for communications, we had 
none. Many years ago motor sections, com sections were all 
moved from military intelligence companies and sent to 
battalion levels. Their staffing was reduced and they became 
ineffective. Maybe it is time to look at bringing them back to 
the company level.
    Weapons training from our reserve unit was completely 
inadequate due to ammo shortage for the past 3 years. Weapons 
training at the mobilizationsite was only marginal and only 
marginally prepared soldiers to be effective and use their 
weapons. Equipment shortages were extremely problematic. Short 
call-up and mobilization times further impacted supply 
problems. Consequently, soldiers deployed without insect 
protection measures, bug juice, insect netting needed to endure 
the harsh environment. At one point in Iraq while we were 
waiting for a mission to start, heat stroke and illness 
exhausted the ability of a local aid station to support us and 
I had to send half of my unit to the hospital for treatment and 
recovery. Many soldiers fell ill when preventive measures were 
known but not provided.
    Mobilization, we were the prisoners of Fort Dix. Army 
Reservists could not leave post and this was a bitter pill to 
swallow for many Reservists and they still speak ill of it now. 
Unit sponsorship was nonexistent. Stepchildren receive better 
care from their sponsors than we did.
    The best training we received in-theater was action on 
contact where soldiers went through simulated combat drills, 
conducting our vehicles in desert conditions. We set up our 
vehicles, mounted our M-60 machine guns on improvised plywood 
platforms and aligning the bottom of our vehicles with sand 
bags. These teams were prepared to move to the field in two 
vehicle convoys.
    In August, some 8 months after our activation we assumed 
our original mission. We replaced the Marines. They left us 
with much needed equipment not available to our organic MI 
chain of command but the Marines proved it was needed to be 
successful in our operations. They left us non-tactical 
vehicles which allowed us quicker traveling speeds in the 55 to 
60 miles a hour tactical vehicles move at. They did not alert 
the Iraqi citizens that they were coming as the motor sound of 
the Humvee truly earned its name. You can hear it a long ways 
off. We varied our speeds on highways, change of lanes as we 
approached bridges and not let anyone pass us once we were on 
the highway.
    Our job is to know the enemy. It is their job to know us. 
We presented the appearance of a battle ready element. Every 
team had a heavy machine gun as well as automatic rifles, 
handguns and grenades. We looked at everyone who looked at us. 
We considered everyone a potential threat until we knew 
otherwise. What I learned as a policeman is to watch people as 
you drive into bad neighborhoods. If they start running or 
start moving quickly when they see you, that is not a good 
sign. It is a good sign that something is amiss. I passed this 
to my soldiers.
    Soldiers purchased much of their own equipment. They paid 
for vehicle repairs, purchased maintenance parts for which they 
were not reimbursed and stated as an aside, we left an Iraqi 
mechanic holding an $1,100 bill for vehicle repairs and I am 
not sure the bill was ever paid.
    In terms of intelligence operations, intelligence 
contingency funds were not available to us until just prior to 
redeployment to the States. Sources did provide information for 
a variety of reasons but money was not available as an 
incentive. We all had issues with doctrine that would not allow 
us to task sources for information. We could suggest but not 
task. Sources do not need suggestions, they need direction. You 
ask them a question and tell them to come back with the answer.
    One final point deals with sources and I will be brief. 
Sources provide information expecting to see action. If they do 
not see action, they lose faith in us and quit providing 
information. In a country where explosive devices litter the 
landscape, the best way to stop roadside bombings is to act on 
information provided by sources as to the old who, what, where, 
when and how can I catch them questions.
    In closing, we arrived as a unit and returned as a unit. We 
fought for just about every living and working space we had in 
Iraq and we left our replacements in improved living and 
working conditions. Let me say that I took what I consider the 
best trained, best qualified soldiers any Nation can offer to 
war. They did an outstanding job and I am proud of them. 
Additionally, I know they are proud of themselves and their 
service to our great Nation.
    Thank you and I will answer any questions you have.
    [The prepared statement of Sergeant Neill follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Sergeant, thank you for your testimony and 
thank you for saying the nice things you say about your men and 
women. We know that to be true and I think the whole country 
does.
    Staff Sergeant SanchezLopez, thank you for being here and 
the floor is yours.
    Sergeant SanchezLopez. My name is Staff Sergeant 
SanchezLopez, a member of the 2nd Battalion, 23rd Marines, U.S. 
Marine Corps Reserve located in Encino, CA.
    I was mobilized in support of Operation Enduring Freedom 
and reported to Camp Pendleton, CA where I served for 13 
months. My unit was deployed with Regimental Combat Team I, 1st 
Marine Division in support of Operation Iraqi Freedom on 
February 2003 for an additional 4 months and returned to the 
United States in May 2003. I served on active duty for a total 
of 24 months. Prior to serving in the Reserves, I served on 
active duty for 8 years and I have been in the Reserves for 4 
years. My military occupation specialty is Motor Transportation 
Chief.
    My unit was not involved in fighting the insurgents but we 
did change our fighting tactics based on how the enemy was 
fighting us. Our roadblock procedure was one of the biggest 
changes, based on the intelligence reports we conducted our 
roadblocks. The change was based on information from Marine 
regiments, from RCT2. Marines changed their tactics once they 
entered Baghdad. These changes involved convoy procedures. At 
the time we stopped allowing Iraqis civilian vehicles from 
passing and mixing in our convoys. This was due to reports of 
attacks on convoys from passing vehicles.
    Our battalion recently completed a battalion field exercise 
in which we incorporated the lessons we learned from the war in 
our training. Some of these lessons were convoy procedures and 
local security. My unit participated in the same training as 
our active duty counterparts at Camp Pendleton. Prior to 
deploying from the United States to Kuwait, we served on active 
duty 13 months prior to departing the United States in support 
of Enduring Freedom. One of our equipment difficulties was we 
did not know prior to crossing from Kuwait to Iraq where we 
would be equipped with amtracks or trucks. We didn't find out 
until a week prior to the ground offensive which we changed our 
tactics to how we were going to employ that.
    I would like to thank all the members of this committee for 
allowing me to speak. I hope my testimony will assist in 
answering any questions you may have.
    Thank you.
    [The prepared statement of Sergeant SanchezLopez follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. It does and it will and we thank you for 
serving.
    Specialist Tanguay, welcome.
    Specialist Tanguay. Mr. Chairman and members of the 
committee, thank you and good afternoon.
    My name is Specialist Michael Tanguay, a member of the 
143rd Military Police Co., a National Guard Unit out of 
Hartford, CT which was mobilized February 7, 2003 in support of 
Operation Iraqi Freedom. I have been invited here today to 
testify before you in regard to my experience with pre-
deployment and deployment to Iraq as it pertains to the 
training and equipment we received. I thank you for this 
opportunity. It is the intent of my testimony today to provide 
you with the curriculum of training we received prior to and 
during our deployment, equipment issues we faced and most 
importantly, lessons we have learned. The goals I have set for 
myself and present to this committee in testifying here before 
you will aid in rectifying known problems and potential trouble 
spots coupled with insight to the lessons we have learned.
    In preparation for deployment, my unit moved to Fort Drum, 
NY for a train-up mission. It is here where we received 2 
months of theater-specific training ranging from Arabic 
language lessons to convey security operations. As a military 
police combat support unit, we have a wide range of missions we 
can perform. Facing the uncertainty of war, we did not know our 
specific mission, so we took the time to review all standard 
operating procedures for each mission or task that we could 
face.
    We performed several live fire exercises that sharpened our 
marksmanship skills and refamiliarized ourselves with each 
weapons system. Mine awareness and unexploded ordinance classes 
were conducted. However, improvised explosive devices did not 
surface until we were once in theater. Medical aid, urban 
warfare tactics, patrol techniques, prisoner of war detainee 
doctrine, area security operations and convoy security 
procedures were key classes conducted that ultimately benefited 
us during our deployment.
    The 2-month train-up phase of the deployment provided ample 
time to train and become a unified fighting machine. However, 
poor time management skills, severe logistical issues and 
improper equipment prevented us from training the way we ended 
up fighting. This motto of train the way we fight highly 
adopted by my unit is a foundational building block of a 
training curriculum. Nonetheless, without the proper equipment 
at our training site, in preparing for a desert climate while 
bundled in three layers of winter clothing, and mismanagement 
of precious training time turned into a last minute dash to get 
up to speed in preparing for war.
    The deficiency of the highly sought after unarmored Humvee 
and interceptor vests, lack of training and time at the mock 
urban warfare town, and unintentional misguided operational 
procedures for various mission tasks proved to be key lessons 
learned and areas to improve. More time spent at the mock urban 
warfare town would have proved extremely beneficial in building 
clearing techniques, possible ambush situations and civilian 
considerations on the battlefield. Our unit spent 2 days out of 
the 2-months at this training site. Time is extremely precious 
in preparing for war but a 2-week minimum at the site would 
have proved extremely beneficial.
    Unintentional misguided operational procedures placed us at 
a temporary setback during the early going while we were in 
theater. Situational dictations coupled with an under manning 
strength hindered us in the way we trained and the way we ended 
up combating. For example, a traditional MP line company as 
myself is broken up into a 10 person squad with three vehicles, 
an ideal and perfect situation for any MP task. However, while 
on the ground in Iraq our squad consisted of six personnel and 
only two trucks, a severe setback in security concern when 
conducting such operations as area and convoy security. The 
operational tempo as high as it was along with a high demand 
for MP type missions dictated changes that took place.
    Arriving in Kuwait on April 15, 2003 proved to be our last 
ditch effort to improve upon our training and ready our gear 
for the bush toward Baghdad. In our 3-week stay in Kuwait, we 
learned of our vague mission task. It was an encompassing task 
to patrol sectors of Baghdad, a very indistinguishable and non-
definitive mission task at best. We readied our unarmored 
vintage aged Humvees and dawned our Vietnam era non-protective 
flak vests for the ride north.
    Severe logistical issues regarding equipment surfaced here 
again. No ammunition for our brand new MK-19 weapon system, no 
up armored Humvees to patrol in, and still no interceptor 
ceramic plated vests to protect us. We adapted and overcame the 
best we could, sandbagging the floor boards of our 1985 
Humvees, creating weapons mounts for our other weapon system 
the M-249 SAW, and retrofitting a couple Humvees with diamond 
plating on the side doors of the trucks.
    Once in Baghdad things didn't improve much. We finally 
received our interceptor vests after a month in Baghdad 
complete with ceramic plates but still had problems with 
ammunition and non-armored vehicles. We were quickly improving 
and overcoming great obstacles with what we had to work with. 
Training was a continuous process. Overcoming enemy tactics 
such as IEDs in the roadways forced us to vary our routes, 
continually improve base and area security, and maintain a high 
level of situational awareness.
    The U.S. military is a highly trained, skilled, adaptive 
and intelligent force. The Guard and Reserve component forces 
have a lot to bring to the table as far as civilian background 
and how it is incorporated into use on the battlefield. For 
example as a Military Police unit, we have a large number of 
civilian law enforcement officers whose expertise and knowledge 
of policing provided firsthand knowledge of patrol tactics, 
weapons proficiency, an urban backdrop and general policing 
duties to those of us less experienced. That factor alone made 
a true impact on our success during this deployment.
    The 143rd Military Police Co. and myself completed a 1-year 
tour of duty in Baghdad, Iraq honorably while facing extreme 
odds and extenuating circumstances not in our favor. Several 
lessons have been learned, some unfortunately due to casualties 
sustained and fellow brothers and sisters in arms lost.
    First and foremost, let us equip our troops with the best 
possible gear to all units whether active duty, National Guard 
or Reserve component. Up armored Humvees, interceptor vests and 
IED jamming systems are great initiatives but need to be 
dispersed to all troops deploying overseas. Next, let us phase 
in a training doctrine that relates more to theater specific 
training regiment. There are several training sites in 
California, Nevada and Louisiana that provide the type of 
climate troops will soon see before they deploy. The mock urban 
warfare training ranges and sites are great tools that need to 
be taken advantage of. Language classes are also great tools 
that prove beneficial.
    Finally, it is imperative that the lessons learned from 
veterans be heard and the suggestions set forth to integrate 
the training doctrine to all deploying units. Let us continue 
to be the most intelligent, best equipped, fighting force out 
there.
    Thank you.
    [The prepared statement of Specialist Tanguay follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Thank you very much. Very impressive.
    Colonel Novotny, welcome. You have come a long way today 
and we are anxious to hear what you have to say. Welcome.
    Colonel Novotny. Chairman Shays and distinguished members 
of the subcommittee, I am Lieutenant Colonel Steven Novotny, 
Battalion Commander of the 530th Military Police Battalion from 
Omaha, NE. I am honored to have the opportunity to speak before 
your committee today.
    In January 2003, my battalion headquarters was mobilized in 
support of Operation Iraqi Freedom. After receiving orders for 
active duty, my unit was certified for deployment at Fort 
Riley, KS, deployed overseas and established operations at two 
separate camps in Iraq. While our primary mission was providing 
force protection at Camp Bucca, we also managed several other 
important missions.
    Several days a week, we coordinated visitation with 100 
prisoners and over 500 family members that were being held at 
our camp. Our property team, responsible for annotating and 
inventory of prisoner personal effects, successfully returned 
many personal items to hundreds of prisoners upon departure of 
our camp. In addition, we entered into an agreement with 
British MPS to serve as a Quick Reaction Force if they needed 
assistance.
    Health care was coordinated with the Czech and British 
hospitals in Basra to treat our soldiers and prisoners on an 
emergency basis. The British also provided a dedicated Air 
Medical Evacuation Team that supported our camp. My unit, the 
530th MP Battalion attached 20 soldiers to the 101st Airborne, 
supporting prisoner constriction. These soldiers also provided 
instruction on law enforcement and correction tasks to Iraqi 
nationals who would assume control over these facilities.
    While the 530th was in control of operations of our entire 
camp, we placed tremendous effort on improving the quality of 
life for our soldiers. We constructed a landing pad for 
helicopters, improved food variety, started an exchange program 
for medical personnel from the British hospital and established 
an MWR, a morale, welfare and recreation center. We also 
constructed a fixed shower facility. While this may not sound 
like much, our troops truly looked forward to one creature 
comfort, improving significantly our quality of life. Other 
things we did to improve morale was establish a local PX and 
having a 2-day bazaar.
    In November, the 530th MP Battalion moved to a new location 
approximately 45 northeast of Baghdad where we secured a group 
of 3,800 detainees. In approximately 10 days our processing 
team entered all 3,800 detainees into an identification data 
bank with the assistance of a civilian assistance review team. 
Our processors were recognized for maintaining a high degree of 
dedication and professionalism while achieving an extremely 
high first-time acceptance rate for data input. Many soldiers 
supported other units to include traffic control points and 
convoy security, while conducting combat operations in our area 
of operation throughout our stay at Camp Ashraf.
    Upon assuming command of my battalion, I conducted a review 
of my unit training program to ensure that our training program 
supported the essential tasks that were required of my unit if 
we were mobilized. I directed that a staff exercise be 
organized to exercise my unit staff, non-commissioned officers 
and individual soldiers from the unit. This training was 
focused on our primary wartime mission. I directed that all 
officers within my battalion participate in a staff training 
exercise where we prepared estimates for conducting convoys.
    All soldiers were trained on individual defensive tactics 
and while using the SINGARS communications equipment, we 
trained on our communications skills. Additionally, we worked 
on our critical task skills, on prisoner handling and 
management as well as specific areas within the Geneva 
Convention that applied to prisoners.
    Before and after mobilization, our active component 
liaisons from the 75th Training Division were instrumental in 
providing our staff with current doctrine and guidance that we 
used to plan future training sessions. While at our 
mobilization station, we conducted training on convoy 
operations, conducted nearly 2 weeks of training on military 
operations and warfare in an urban environment. This training 
was organized as a direct result of lessons learned from the 
incident of the maintenance unit that became disoriented in the 
city during convoy movements and was required to fight its way 
out of an urban environment.
    Early in our mobilization, I was invited to view exercises 
of possible wartime maneuver scenarios at Fort Hood along with 
my higher headquarters. These training sessions were invaluable 
in providing me the focus of potential missions of my 
battalion. Prior to leaving for Iraq, the 530th Military Police 
Battalion dispatched liaison noncommissioned officers to meet 
with subordinate companies that were located at Fort Lewis, 
Fort McCoy and Fort Bragg. These NCOs assured a coordinated, 
clear standard operating procedure was distributed to all units 
and that lines of communication along with clear and understood 
chain of command was established.
    The primary wheeled vehicle we had in our headquarters 
company was the Humvee. These were configured as two and four 
seat vehicles. Several were used as utility vehicles and could 
haul a limited amount of supplies and personnel. None of these 
vehicles were equipped or configured with protective armor or 
machine gun mounts. Companies assigned under my control brought 
a variety of Humvee vehicles. These varied from vehicles with 
no armor to those with up-armored Humvees.
    Immediately upon our arrival at our first location, I 
ordered that all vehicles be sandbagged with protective 
measures against mines. Units were outfitted with the armored 
Humvees were heavily tasked to provide convoy escorts for VIPs, 
prisoner transport, medical movement, logistic escort and force 
protection missions. All assigned line companies were equipped 
with 2\1/2\ ton trucks as our primary logistics vehicle. While 
most of these trucks were over 30 years of age, the battalion 
was able to maintain an acceptable operational readiness rate.
    While in Iraq, our battalion received new medium trucks at 
our home station in Omaha. Unfortunately, those vehicles were 
provided to other units who were scheduled to mobilize after 
us. Prior to moving to Camp Ashraf, all soldiers received the 
most current body armor to include front and rear plates. The 
530th MP Battalion left all vehicles and most equipment to 
include the light engineer equipment in-country for follow-on 
forces to utilize after our departure.
    One lesson learned that would have improved our mission 
capability would have been an increase in allocation of medium 
machine guns and additional ammunition to allow for more 
soldiers to qualify on these weapons. While communications 
equipment was adequate, we needed additional backup equipment 
such as cables and microphones. We found that while we deployed 
with all of our soldiers we were supposed to have with our 
manning roster, our communications soldier was not enough. This 
was one person to support an entire battalion.
    I would also recommend that some elements within the 
command structure be equipped with armored security vehicles, 
ASVs. These would provide MPS with increased fire power and 
survivability. Our war fighting doctrine was based on an MP 
battalion being placed approximately 80 miles behind the front 
lines. This doctrine did not account for an MP battalion to 
establish detainee camps while on the move and following lead 
combat forces.
    Prior to mobilizing, all staff officers reviewed the After 
Action Review from our unit from Operation Desert Shield/Desert 
Storm. The staff would take information from actual events and 
modify our training accordingly. The battalion would send 
advance and quartering parties to identify critical issues at 
future locations that we would anticipate moving to.
    The battalion conducted after action reviews after primary 
training events or actual situations in order to capture 
critical issues and provide updated guidance to our soldiers. 
We utilized IED employment templates which identified patterns 
of employment in our area and along routes that our convoys 
would move. Prior to convoys leaving our base, the S2 would 
request an IED update from our supporting brigade. If 
necessary, we could postpone convoy movements or take alternate 
routes.
    We encouraged postponing convoy departures due to heavy fog 
in the morning. The battalion conducted detailed mission briefs 
utilizing sand tables which are a military method of 
visualization of the battlefield prior to all missions. My 
staff and I used the Combined Arms Lessons Learned [CALL], Web 
site from Fort Leavenworth. This is a storehouse of all Army 
lessons learned. We depended heavily on the operations and 
intel update for current information from the 2nd Combat 
Brigade of the 4th ID.
    The 530th Executive Office was tasked with forwarding 
current situational updates with our lessons learned to the 
89th Regional Reserve Command in Wichita, KS so they can 
incorporate our lessons learned into training plans for other 
Reserve forces. The 89th was able to emphasize to following 
units issues such as bringing as much PLL, prescribed load list 
items as possible with them. In addition, the convoy portion of 
the mobilization train-up was modified to incorporate lessons 
learned from units in-theater and pass on information to 
improve safety. Another result was a subordinate unit bringing 
in a Humvee with increased protection instead of what had been 
authorized previously.
    During the 530th's mobilization, we commanded nine 
companies from active duty, Army Reserve and National Guard. My 
battalion did the best to forge all companies into one team 
while providing them with the best leadership, guidance and 
resources they would require. I am extremely proud of all of 
our soldiers I have served with from California, South 
Carolina, Nebraska, Texas, Georgia, Wisconsin, Kentucky and 
Puerto Rico.
    Thank you again for your time and I will answer any of your 
questions.
    [The prepared statement of Colonel Novotny follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Thank you, Colonel, and thank you for being 
here.
    Dr. Krepinevich, thank you. It is nice to have you here 
again and the floor is yours.
    Dr. Krepinevich. Thank you and thank you for the 
opportunity to appear before you today and share my views on 
this important issue.
    As you know, my expertise on the details of training and 
preparing our troops for deployment to Afghanistan and Iraq is 
far from comprehensive. Consequently, I will focus my comments 
in placing the training issue within the larger context of our 
operations in these two countries.
    For people my age and those of us who have served in the 
military, there is a sense that we have been to this movie 
before. Indeed, 42 years ago almost to the day, President 
Kennedy in addressing the graduating class at West Point said 
the following, ``This is another type of war, new in its 
intensity, ancient in its origins, war by guerillas, 
subversives, insurgents, assassins, war by ambush instead of by 
combat, by infiltration instead of aggression, seeking victory 
by eroding and exhausting the enemy instead of engaging him. It 
requires in those situations where we must counter it a whole 
new kind of strategy, a wholly different kind of force, and 
therefore, a wholly different kind of military training.'' When 
he spoke those words, he was referring to places like Vietnam 
and Colombia but I think they are quite apt for the kind of 
combat that these people find themselves confronting today in 
Afghanistan and Iraq.
    First, we are victims of our success. Our military so 
dominates that the conventional form of warfare that we have 
essentially driven people out of that business. Those who want 
to confront us are now like North Korea and Iran, looking for 
nuclear weapons. Those that can't do that such as the 
opposition in Afghanistan and Iraq, seek the route of 
insurgency and practice the tactics the President spoke of some 
42 years ago.
    Second, as they have gotten into this business, we find 
that we have been out of this business. We got out of this 
business after the Vietnam War. ``No more Vietnams'' was voiced 
not only by the American public and the political leadership 
but quite frankly also by our military as well. The 1980's saw 
the Weinberg and Powell doctrines, go in with everything you 
have, overwhelming force and leave quickly. The 1990's when we 
had situations where we did deploy overseas, we can think of 
Somalia, Haiti and Bosnia, there was all discussion about exit 
strategies. Let us not stay there too long. That seemed to 
work. Unfortunately, September 11 changed everything. Now we 
don't have the luxury of leaving a Haiti or Somalia, especially 
when they are named Afghanistan and Iraq just because we got 
tired or we don't feel we are as successful as we should be. 
Nevertheless, this approach, this no more Vietnams, Weinberg-
Powell Doctrine and exit strategy concept practiced by all of 
us, Republicans, Democrats and military alike, led to the 
atrophy of the kinds of skills, the kind of doctrinal 
development, the kind of thinking about what it takes to 
prevail in this kind of war.
    Thus, the tactics we talk about the insurgents practice in 
places like Afghanistan and Iraq, while they seem perhaps new 
to us, they are hardly new at all. Suicide bombers are not new. 
Neither are car and truck bombs. We saw those as far back as 
1983 in Beirut and Lebanon. Certainly attacks on convoys aren't 
new. As for improvised explosive devices, we have seen them 
before as well. In 1966 in Vietnam, over 1,000 Americans were 
killed in combat because of improvised booby traps and what we 
would call today IEDs. If it seems new, if these challenges 
seem new and the training requirements seem new, it is because 
just as they have gotten into this business, we find that we 
have been out of it for too long.
    The third point I would like to make is that insurgencies 
are typically protracted conflicts. Since they are protracted 
conflicts, we need not only the kinds of adaptive fixes that 
these men have been talking about but we also need to move 
beyond this hastily organized fix for training. We need a 
coherent, focused, long-term approach to bring the U.S. 
military's training infrastructure for irregular warfare as 
counter insurgency is up to the standards we have established 
for conventional warfare training facilities such as at the 
Army's National Training Center and other facilities.
    Fourth, the issue of a training gap. Insurgencies are, as I 
said, protracted conflicts. What we have is a force that will 
continue to rotate over time. We have already gone through the 
first rotation. Insurgents don't rotate. They continue to 
receive the best possible training, contact with American 
forces. If this occurs as it does over time, if this is a 
protracted conflict as most insurgencies are, a training gap 
will likely emerge between our forces and theirs, making it all 
the more important to make sure that our training standards are 
up to the highest level possible.
    Indeed, as troops rotate out of the theater of operations, 
their skills begin to atrophy. Not only that, but since they 
don't participate directly in the conflict, the fact the 
insurgents are adapting may make these skills not only atrophy 
but also less relevant over time. This means is that we need to 
find ways to mitigate the training gap, not only through the 
training infrastructure but also by prompt, accurate feedback 
that can be used in training forces in that infrastructure at 
the relevant kind of tactics and operations at the relevant 
scale.
    We need a stable rotation base that can insure high 
retention rates. If in fact over time we are going to be 
deploying forces again and again to Iraq and Afghanistan and 
other places where we are confronted by insurgents, we are 
going to need people who have had that experience before.
    Finally, the Army's concept of unit manning might even 
prove more productive in that it would not only rotate people 
back, people who have better experience but finally, people who 
are operating as a cohesive unit. Failure to retain people will 
lead to an even greater burden on our training infrastructure.
    My final point as First Sergeant O'Neill said, our troops 
and units train the way they fight. They train the way they 
fight and they fight as a function of the doctrine and the way 
they are organized, the force structure. Again, just as 
training has atrophied over the last 25 years, so has doctrine. 
The NTC may be fine for conducting training on sweeps to detect 
guerilla forces in open desert but it is far less relevant if 
our doctrine emphasizes securing and holding towns and urban 
areas for protracted periods. In this vein, it is critical to 
have a clear sense of the strategy that we are pursuing in 
Afghanistan and Iraq because the fact is that no matter how 
tactically proficient we are, that is not going to be a 
substitute for good strategy or effective doctrine.
    Let me sum up. Again, let me compliment the committee for 
raising the awareness of this important issue. Again, I think 
the fact we are engaged in dealing with insurgency today is a 
function of our military dominance. Nevertheless, although 
insurgency may be a form of warfare of the weak and not the 
strong, it still presents us, as Secretary Rumsfeld has said, 
with a long, hard slog to victory. This means we must move 
beyond the service's immediate training fixes, helpful though 
they may be, to undertake reform and restructure of our 
training programs to address a form of warfare that has 
received all too little attention these past two decades.
    Finally, it is critical to note that improved training at 
the tactical level of warfare cannot make up for deficiencies 
in strategy and military doctrine.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Thank you. It is an incredibly important 
subject. We appreciate your thoughtful comments and hope 
everyone was listening because it is very important.
    General Alexander, we are glad to have you here. You 
represent a magnificent organization. It is my privilege to 
yield the floor to you.
    General Alexander. Thank you very much for inviting me to 
testify on behalf of the National Guard Association of the 
United States.
    As you know, the mission of the National Guard has changed 
drastically since September 11. Today's Guardsmen and 
Guardswomen are not only supporting missions to defend and 
protect our homeland but they are also deployed abroad in our 
ongoing war against terrorism.
    The state of the National Guard is good. However, as the 
Guard participates in Iraq, Afghanistan and other locations 
throughout the world, challenges continue and they will 
continue for some time. I believe the Guard has demonstrated 
they are up to these challenges. The current military 
leadership understands the hardship the Guard is enduring. The 
families and employers of these brave men and women understand 
and support the commitment that their loved ones, co-workers 
and friends have elected to make. An Arkansas spokesman says, 
``Guard families are doing OK. Though they have anxiety, they 
still support the Guard.'' These comments were in light of the 
Arkansas Guard sustaining five combat related deaths just a few 
weekends ago in Operation Iraqi Freedom.
    In preparing my testimony, I solicited comments from 
members of the National Guard Association and received feedback 
from the Adjutants General of the States and communications 
from Special Forces soldiers and those soldiers returning from 
areas of operation in Iraq and Afghanistan. I will report to 
you those in the field are thankful for the forward thinking 
preparation that has been demonstrated by our Nation's 
Adjutants General. In several instances, training from lessons 
learned has been instituted from the ground up, that is State 
level rather than top down from the Federal level. As such, 
many States have taken the lessons learned from their returning 
or deployed units and incorporated new training regimes to 
prepare soldiers for their deployment in theater.
    Several States have initiated their own programs to prepare 
their soldiers for combat operations such as additional combat 
arms training to enhance basic soldier skills outside of the 
MOS skill set and years of additional funding to enhance 
communication and coordination training for units preparing for 
deployment.
    In preparation for my testimony, I reviewed questions that 
you posed to us. As such in my capacity as president of the 
National Guard Association, I would like to focus on two 
aspects of the questions you presented to us, training and 
resourcing. With regard to training, some units are reporting 
that redundancy in training has extended their stay at 
mobilization stations. Other feedback indicates that some of 
the existing training at home station does not fit the 
scenarios that our personnel are encountering. This also is 
increasing time at mobilization stations. This is requiring our 
soldiers to be gone for 18 months or more. There should be a 
review of our current policies and procedures to maximize 
training and certification at home station.
    There exists instances where we are using training doctrine 
as stated earlier that is more than 3 years old. We should make 
every effort to reduce time at mobilization stations by 
addressing this training gap. In addition, there should be a 
review of training for the Air National Guard transportation 
units. Some Air National Guard units are being deployed without 
training and as a result are required to train up in theater. 
This is the transportation piece. A greater attempt should be 
made to train these units prior to deployment.
    Allow me to read comments from a Special Forces unit that 
has returned from operations in Afghanistan. Transition that 
occurred in Afghanistan between National Guard Special Forces 
groups and active duty Special Forces groups did not allow for 
an effective passage of information or situational awareness 
for two reasons. Active component intelligence and command 
personnel who had been deployed in the region for less than 8 
months did not have confidence in the National Guard to further 
develop a valuable situational awareness or understanding. The 
transition schedule also did not allow for sufficient overlap.
    After returning to home station for deployment, most units 
did not see value in their receiving lessons learned or heads-
up information from us, that is the Guard Special Forces group. 
They viewed such as an ad hoc means of relating information to 
be a training distractor. These unit commands believe that 
their power projection platforms and higher headquarters would 
be able to provide them the information they needed to succeed. 
Some units have accepted offered briefings and work groups only 
to limit attendance and to assure that these meetings were kept 
short. Attempts at providing information failed because unit 
commands were not reachable or did not return attempted 
contacts.
    With regard to the issue of resourcing our Guard forces, 
the following comments were made from the field. Adequate 
training with sappy plates and body armor should be done 
stateside. Soldiers need to be comfortable and familiar with 
all the equipment they will be using before deploying to their 
theater of operations. We should be training and resourcing our 
forces at C-1 level rather than taking extended time to train 
at C-3 level. We must ensure that our personnel have the 
materials and equipment they will be using in the area of 
operation.
    Also allow me to read excerpts from one of several e-mails 
I received from soldiers serving abroad when we posed your 
questions to them. The current military table of organizations 
do not provide the necessary equipment for units operating in 
this environment. For example, our truck company is not 
authorized radios in each vehicle to maintain communications 
between drivers. The unit purchased secure handheld radios 
prior to deployment which have been essential to that unit.
    The M-16 A2 is not the best weapon for transportation 
soldiers to quickly engage the enemy and they should be 
replaced with M-4s. A hatch cut in the top of a het would offer 
better field of fire observations. Up-armored Humvees must be 
standardized. As you may have heard, a number of our soldiers 
are being inundated and all kinds of ways are being used to 
protect themselves in Humvees.
    The standard military weapons training must be enhanced to 
include close quarter battle and enhanced weapons training for 
all soldiers. This is very true for our transportation company 
personnel who during an ambush transitioning to modern infantry 
is a must. At present, the individual States are purchasing 
equipment and providing training required. MOS training schools 
must spend more time focusing on critical combat skills and 
eliminate nonsurvival skills such as drill and ceremony. Every 
minute of training time on skills that will keep a soldier 
alive in combat is what we should be about.
    In the fog of war and in light of logistics and resourcing 
challenges facing our Guard units, they are producing 
innovations in the field as relates to the individual equipment 
and vehicles. For the record, I would ask that an article from 
the Topeka Capital Journal be entered into the record for the 
committee's review. I believe that has already been submitted.
    Mr. Schrock. Without objection.
    General Alexander. As you can see, there have been 
challenges that need to be addressed. I believe the Guard units 
and their leadership are responding. I believe that our Guard 
units and Adjutants General are focusing on training and 
preparing their personnel in order to protect the lives of our 
citizens.
    Again, our Guard personnel are rising to the new challenges 
each and every day. We must continue to evaluate our mission 
and how we train and equipment for such missions.
    I applaud you and this committee for focusing on this 
important issue in order to serve our military men and women. 
They are our greatest asset. Without them, we cannot fight and 
defend our country. We must honor the sacrifices they make each 
day.
    Thank you again for the opportunity to testify and look 
forward to your questions.
    [The prepared statement of General Alexander follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Schrock. Thank you, General.
    Let me start the questioning by asking our first three 
witnesses, if you had the opportunity to ask questions of your 
senior leadership, what questions would you ask?
    Sergeant Neill. We did ask questions of our senior 
leadership. We asked them what was wrong with their supply 
system and who was responsible. They fingerpointed and would 
not accept responsibility. Anything that happened in my 
company, as the First Sergeant I am responsible for it, good or 
bad. So the senior leadership has to provide an answer for us. 
They didn't always have an answer.
    We asked about training, we asked about plus up of ammo. We 
didn't have our basic load. We were able to get ammunition from 
other people, ask them and they gave it to us. Our own 
battalion wouldn't support us for many months. We didn't have, 
like other soldiers said, the basic material we should have had 
to go to war.
    Mr. Schrock. Staff Sergeant.
    Sergeant SanchezLopez. Well, sir, for us, we did have the 
opportunity to speak to General Maddis who was in charge of us, 
the 4th Marine Division Commander came up and took questions 
from the individual Marine and Lance Corporal. Whatever he 
didn't have an answer to, he took it down, went back and came 
back with an answer.
    Mr. Schrock. Specialist Tanguay.
    Specialist Tanguay. We did ask quite a few questions during 
our training mission and once we were overseas. Several 
questions were raised at the training site in regards to 
seminition training which is a realistic training exercise 
involving the M-9 pistol, the barrel is interchangeable with a 
seminition barrel and it fires a projectile most commonly 
referred to as a paintball. That training we have ample 
opportunity, we have the equipment in our possession but we 
didn't train with it. Why didn't we train with it? It provides 
a realistic opportunity for soldiers to train with it. Why 
didn't we train with it? We asked that question.
    Mr. Schrock. What was the answer?
    Specialist Tanguay. The answer was none of your business 
was a command directive. It was a commander's responsibility 
for providing the training at our training site. We did not 
receive that training.
    The next question that was raised by subordinates along 
with NCOs was the truck issue, the Humvee, the up-armored 
Humvee once we got overseas. Several questions were raised why 
aren't we getting the up-armored and so forth. The up-armored 
were in such high demand and in short supply. Basically every 
other week we were getting an answer but they came out with 
these retrofitted survivability kits they call them for the 
Humvees. Primary answer to that question was funding. They 
didn't have the money to purchase these kits. That was the 
answer we received from our command staff in regards to that 
issue.
    We did ask questions. We were provided the opportunity to 
ask questions. Some of the answers we received were not 
adequate.
    Mr. Schrock. Colonel, would you want to comment on that?
    Colonel Novotny. Reference funding for the add-on kits, we 
were able to obtain funding which allowed us to have add-on 
armor to our vehicles that were not armored at all. While it 
didn't give us the same protection as an up-armored vehicle, it 
provided some protection against fragmentation and small arms 
fire.
    Questions after we were deployed on the logistics side, we 
contacted the CFLC G-4 and they sent a rep to our camp to 
ensure that my battalion and all subordinate companies were 
tied in the best we possibly could to ensure we received the 
PLL, all parts and items that we were authorized and to ensure 
the system was streamlined. Back at Fort Riley, I understand 
the criticality of ammunition. The STRAC Manual only allows so 
much ammunition for qualification for primary machine gunners 
and other machine gunners.
    When we deployed, my HHC and the headquarters immediately 
realized that was not adequate for our needs because we were 
now providing security on a 24-hour basis and we had to train-
up our own soldiers in order for them to handle machine guns.
    One thing I would say is that we need to look at how units 
are authorized and how they are aligned in a peacetime 
environment. I mean by that when I was mobilized, the companies 
that fell under me, I had not had any contact with those 
commanders before and that is the primary reason why I sent 
that liaison to those company commanders to ensure we were tied 
in the best we possibly could to command control and structure 
so they knew the 530th MP Battalion and knew our standards.
    Mr. Schrock. Let me do a follow on. To your knowledge, have 
your replacements over there experienced the same deficiencies 
or have some of these problems been adequately addressed, to 
your knowledge? First Sergeant.
    Sergeant Neill. Our replacement company, the company that 
came in behind us, actually had a much better supply system 
than we had. We left them with all our vehicles, we left them 
with extra weapons, we left them with all our body armor and we 
left them with non-tactical vehicles and equipment we acquired 
that actually Marines left us. It made it much easier to do 
their mission. They didn't have enough non-tactical vehicles 
but they surely had a better supply system in place than we 
had.
    Mr. Schrock. Only because you left in-country what you took 
in country?
    Sergeant Neill. We left a lot, they had better support 
coming in. We are a unit that has teams that deploy in cities 
away from our company. We are a company that was detached from 
our battalion and our battalion didn't support us. The other 
battalion we came to, some of them took better care of us than 
our battalion did but we stretched our asses also. So our teams 
were pretty much operating every day in two vehicle convoys in 
the communities by themselves.
    We carried supplies to them once a week and in our time in 
Iraq put some 30,000 miles in two vehicle convoys between the 
five southern cities of Iraq, Desaqut, Desja, Dewina, Karbala 
and Hella. They were better off than we got there.
    Mr. Schrock. Staff Sergeant.
    Sergeant SanchezLopez. The follow-on units, we were slated 
to stay back if they didn't have enough equipment. What 
happened is they had enough equipment and we got to rotate back 
out of Iraq. In Kuwait, we did an asset inventory of what we 
had and the question was what can you do without back in the 
States to sustain your training when you get back that you 
could give up to other units. So we hashed out, gave them 
hardback hummers which was the Humvees they are describing, 
gave several of those, tow vehicles, anything anyone needed, we 
gave them.
    Mr. Schrock. Specialist Tanguay.
    Specialist Tanguay. I also agree that the unit that 
replaced us was far better equipped than we were when we first 
got there. We also left our up-armored vehicles that we did 
receive after being in theater for 12 months. We left those 
behind. We left behind crew serve weapons, excess ammunition, 
parts and service and logistical issues that we experienced 
were hashed out for the unit that replaced us. So they were far 
better equipped when we left than when we first got there.
    Mr. Schrock. Colonel.
    Colonel Novotny. I would agree. The battalion that replaced 
us was much better off than we were going in. My staff had 
organized many lessons learned as far as the train-up. We had a 
good crossover between the two battalion staffs. One issue that 
should be raised is that while we were both MP battalion staff 
and headquarters, we were organized differently. My battalion 
headquarters had a R&U section which was capable of performing 
light engineer tasks, building small items. One thing that was 
key for us was showers for ourselves. A lot of times you could 
not depend on a shower unit being at our facility and it was a 
tremendous asset for us. Also, their primary focus is to 
support the prisoner population in the compounds for light 
engineer resources and tasks. Our guys did a tremendous effort 
for our battalion. The follow-on unit did not have that and it 
was a shortfall they probably had, but overall, they were 
better.
    Mr. Schrock. I want to address the POW issue in a minute 
but let me ask one question of everybody. Have Guard and 
Reserve units properly addressed or are they addressing and 
improving in-CONUS administrative procedures to foster better 
real training for the war fighters?
    Sergeant Neill. I can't answer that question. I am too new 
back to this country. I have only been back 30 days. I can't 
answer.
    General Alexander. I would like to comment on that 
question. There are several instances where that is in fact 
happening. The heads training area located in the State of 
Louisiana has been very innovative to embrace convoy operations 
that provide for the exercise of modern infantry skill set. The 
State of New Mexico has also been leaning forward to ensure 
that the present tactics that are utilized are regimented into 
their original training institute. There are lessons learned 
that are being exercised that are taking advantage of our acts 
of war.
    Mr. Schrock. Staff Sergeant.
    Sergeant SanchezLopez. We are applying what we learned 
specifically to our unit. We do have a lot of new personnel. We 
have a lot of experienced Staff NCOs and we are sharing that 
knowledge to everyone so everybody will be on board. It doesn't 
matter if they are a cook, admin, transportation, everybody 
will be on the same level.
    Mr. Schrock. Did you want to comment?
    Specialist Tanguay. I have also only been back 3 weeks, so 
I really can't comment on the situation of administrative 
functions and the reality of training.
    Mr. Schrock. That big smile on your face tells me you are 
glad to be home.
    Colonel.
    Colonel Novotny. I can state that follow-on forces from 
within my own group back home, they have modified the training 
at Fort Riley for convoy operations where they conduct live 
fire exercises as part of that convoy process.
    Mr. Schrock. The prisoner abuse cases that are certainly 
dominating the news have cast tremendous doubt on how effective 
military police and military intelligence training is 
inculcating in military personnel the humane treatment of 
prisoners of war and detainees. Three of you are connected with 
military police and military intelligence. Were you ever 
provided training focusing on the care, handling and management 
of prisoners of war according to the Geneva Convention rules? 
First Sergeant.
    Sergeant Neill. Yes, sir. Every time we deployed, and this 
was my second deployment, we were provided with Geneva 
Convention training and an initial training in MOS training, 
you are provided with that same training which says you will 
treat any prisoner the same way you treat your own soldiers, 
that they have protective equipment during an attack, they will 
be allowed to wear that equipment. To see soldiers violate that 
Geneva Convention hurts all of us. It hurts us as soldiers, it 
hurts us as Americans. That is not what this country is about.
    If I could, I found the Iraqi citizens to be hard working 
and they want the same things we want. They want employment, 
protection for their families and they want to earn an honest 
living. To see that happen, hurts every citizen in America.
    Mr. Schrock. It hurts us too.
    Specialist Tanguay, do you want to comment on that?
    Specialist Tanguay. Yes, sir. During our 16 weeks of 
military police school, MOS specialty school, you learn a great 
deal about how to handle prisoners, detainees and prisoners of 
war, so it is absolutely certain that we did receive the 
training, both at the 16 weeks of our specialty school along 
with our pre-deployment mobilization phase, the necessary 
training in the Geneva Convention process and detainee and 
prisoner of war operations.
    Mr. Schrock. Colonel.
    Colonel Novotny. I agree with the comments of the other 
panel members. We have also received that instruction as part 
of mandatory training, it was part of the process at Fort 
Riley, it was part of the process that I directed my people go 
through and shortly after I took over my unit, we completed for 
our certification at Fort Riley a very similar exercise that we 
move individuals from one location to another from compound to 
compound as far as receiving these individuals who were 
prisoners. They were actually citizens or soldiers dressed up 
in uniforms.
    Prior to the mobilization, I read every word of the Geneva 
Convention that applies to taking care of prisoners to 
establish my basis. I also was in the same unit during Desert 
Shield/Desert Storm where we took care of 18,000 prisoners. I 
was assistant operations officer and also an enclosure 
commander and came in contact with nearly every prisoner that 
came in our facility. I was charged with ensuring that they 
were properly cared for, bringing them, accounting for them, 
making sure they had their ID card and they were in our system 
for accountability.
    After the prisoner situation was stabilized, I was tasked 
to lead another element to conduct an identification process 
for 12,000 refugees who fled Iraq and were in the process of 
confirming the identification process for them in the neutral 
zone.
    Mr. Schrock. Hindsight is always 20-20 but had any of you 
observed such abuse, what do the relative training modules and/
or the regulations say you as an observer should do because 
obviously there were people who were observers who did nothing. 
By regulation, what were you to do?
    Colonel Novotny. I would say report immediately to your 
chain of command if that were to happen. I had minor situations 
where a guard had pushed a prisoner. My NCOs reported it 
immediately through the chain of command to me. I took what I 
considered appropriate actions against those individuals. Their 
chain of command was present. To my NCO who was specifically 
tasked to run the facility where that happened, I ensured that 
every case would be reported up the chain of command and that 
would not be tolerated in the future.
    Mr. Schrock. First Sergeant.
    Sergeant Neill. That action would have stopped immediately, 
sir. I agree with the Commander, ensuring that the soldier was 
adequately counseled, disciplined if required and efforts 
redirected.
    Mr. Schrock. Specialist.
    Specialist Tanguay. Absolutely report it up the chain of 
command, without a doubt.
    Mr. Schrock. Mr. Shays.
    Mr. Shays. Thank you.
    I have now learned what happens when you allow someone to 
chair the committee and get 15 minutes. [Laughter.]
    Mr. Schrock. Make hay while the sun shines.
    Mr. Shays. This committee allows for extensive questioning 
by a Member instead of just doing 5 minutes. When we do that, I 
think we learn so much. I learned so much from your questions 
and I thank you.
    I want to say this is a wonderful example of how a process 
works because I had a community meeting in Oxford, CT and I had 
two fairly young moms who had sons in Iraq complain to me about 
the fact that their sons were in Humvees that didn't have 
shielded proper equipment. So I task the gentleman on my right 
to be in touch with your mom. I thought one of the things, Mr. 
Tanguay, that I would not want is to have had to go back to 
your mom and express my sorrow for your death, for your not 
having the proper equipment since I sent you there. Whether I 
sent you there or not, I would never want that to happen.
    It has been a real surprise to me when Mr. Murtha had gone 
to Iraq and found our soldiers did not have the fully armored 
vests, it was a surprise to me to learn from your mom that our 
Humvees were not properly shielded and that is the way the 
process sometimes works. When we find out, we start to see some 
incredible action. When I was in Iraq for my fifth visit with 
the professional staff to my right, we were in Haniken and we 
had three Humvees so we just kind of knocked on the door of the 
257th Armored Brigade and they had three Humvees, one that had 
no armament, one that was makeshift and one with the kit, and I 
understand the kit was a little better because if a shell hit, 
it would maintain its integrity a little better.
    The question I want to ask each of you, it is hard for me 
to imagine that we would have sent you there without the proper 
equipment. Is this an example of where we just didn't think we 
needed the equipment? If it is not, I want to know. I want to 
ask each of you. You all must have thought about this. Why 
would you have been sent there without the proper equipment? 
Let us start with you, Mr. Neill.
    Sergeant Neill. I couldn't answer that question. We were 
surprised to see that. We had Internet access home, we saw the 
papers and people back home were saying we would have the vests 
in a certain month. We were already in country 6 or 8 months 
before we had them. It was 3 or 4 more months after that before 
we finally received the vests. When we left, our vehicles were 
not plus-up armored and our job was to go into community every 
day. We didn't have ammo, we had to acquire extra weapons from 
other companies in our battalion. We mounted our weapons 
ourselves.
    The important thing for us was to go out battle ready and 
be prepared for whatever came and giving the appearance that we 
were ready. I think that deterred it.
    Mr. Shays. Do you think that was because you weren't part 
of the active force or do you make the same claim as active 
force did not have the same quality equipment?
    Sergeant Neill. The active force that we saw, MI, did not 
have the same quality vehicles that we had. Some of them had 
plus-ups, some of them did not. They had the same exact things 
we had but they were doing the same mission we were. The 
countryside is littered with ammo, artillery rounds everywhere. 
What brought us back safely was we used NTVs.
    Mr. Shays. Non-tactical vehicles.
    Sergeant Neill. And we could travel faster. We became a 
difficult target for them to hit. We could travel at 120 miles 
a hour. An Humvee can only do 55 miles a hour and you can hear 
it coming from about a quarter of a mile away. We would see the 
citizens in the field look up from their work when they heard 
the Humvee coming.
    Mr. Shays. What was the speed of the other vehicle?
    Sergeant Neill. We could go 120 miles a hour, sir. We used 
Trailblazers, seized vehicles that the Marines purchases.
    Mr. Shays. You are saying the SUVs?
    Sergeant Neill. Yes, sir, the SUVs. The Humvee could do a 
maximum of 55 to 60 miles a hour.
    Mr. Shays. You would rather have been in an SUV than the 
Humvee?
    Sergeant Neill. For where we were, yes, sir.
    Mr. Shays. The irony is the SUV got better mileage.
    Staff Sergeant.
    Sergeant SanchezLopez. It was our understanding about those 
vests that went into our flak jacket, they were just beginning 
that process of fielding to the Marines when we were getting to 
go, so as we got our desert camis issued, we got our ballistic 
shields issued. When we got in theater in Kuwait, we didn't 
bring our stuff because the ship arrived 2 days prior for us 
crossing the line of departure. So we stuffed our Humvees, our 
trucks, our ammo and took off. They said we are crossing at 
this time.
    The only shortfalls we had was didn't find out we were 
going to have trucks until the week before. We were waiting for 
the gear that was on the ships and they said, oh, no, we're 
going to give you some other stuff coming in from other ships.
    Mr. Shays. I think there are always reasons for everything, 
obviously, and what I am trying to understand is the reasons 
why you didn't have the ammunition, the reason why you didn't 
have the plus-up Humvees, the reason why you didn't have the 
vests, reasons other than just they weren't available. The 
question I raise is did they think you didn't need them, that 
in other words the war was over. Were you being sent before 
engagement or before the removal of Saddam or after?
    Sergeant SanchezLopez. We were part of the OIF-1.
    Mr. Shays. So they knew you would be in combat.
    Sergeant SanchezLopez. We needed everything that we were 
provided.
    Mr. Shays. Specialist Tanguay.
    Specialist Tanguay. We knew we needed everything we could 
get. Unfortunately there were severe logistical issues that 
prevented us from receiving what we needed. We knew we needed 
better protective vests, we knew we needed better vehicles, we 
knew we needed more ammunition than what we received. It was 
not a question of did we need this or not. It was a question of 
we knew we needed it, but we didn't receive it.
    Mr. Shays. Tell me why you think you didn't receive it?
    Specialist Tanguay. I am not sure. There were logistical 
issues beyond the control of myself or our command staff at 
levels far above our control that prevented us from getting 
what we needed. We needed to be prepared for any MP type 
mission we were going to be assigned. MP type missions 
encompass a wide range of tasks.
    Mr. Shays. It seems very clear that you would need the 
protective gear and you would want to be in a Humvee that is 
shielded.
    Specialist Tanguay. Correct.
    Mr. Shays. Colonel.
    General Alexander. I would say that----
    Mr. Shays. Is that the prerogative of the General? I said 
Colonel and I heard from the General.
    General Alexander. I am sorry.
    Mr. Shays. General, I am going to let you be the closer in 
this line of questioning. Colonel.
    Colonel Novotny. I felt that the reason why we went with 
the vehicles we did, as I stated earlier, was the doctrine was 
that my kind of unit would be organized and would be set up 
behind the lines. If we were in an environment where there was 
a low threat, I would have no problem with soft skin hummers, 
excellent vehicle, go anyplace, do anything but it did cause 
some concern when we crossed the border a few days after the 
ground forces and we weren't sure what kind of environment we 
were going into.
    After we deployed forward, I believe we were on the same 
basis as the active component units in our area. There was no 
difference between AC, Guard or Reserves there, same vehicles, 
we helped them and they helped us.
    Mr. Shays. What do you do when you are in a command 
position and you know you are sending your men into battle 
without proper equipment? What do you do? Do you complain about 
it? Do you tell your men you are sorry? Do you just say, stiff 
upper lip? What do you say? What do you do? What do you think?
    Colonel Novotny. We had to do some negotiations to get the 
correct body armor along with the plates. We coordinated. One 
of my units was redeploying back home and at a redeployment 
point they dropped off their armor, they accounted for it, we 
picked it up, within a couple of days we moved north to our 
second location.
    Mr. Shays. Thank you. Dr. Krepinevich, do you want to make 
a comment or should we go to the General?
    Dr. Krepinevich. I would just echo what the Colonel said 
about the issue of doctrine. We are talking about not only an 
enemy that is presenting us with a kind of problem that we 
haven't really focused on for several decades now, but in the 
case of the Army, the Army is transforming. If you look at the 
difference between the first and second Gulf wars, the first 
Gulf war was a 1-year advance, there was a clear front and a 
clear rear and you could operate in the rear in a Humvee 
without much protection and you would be just fine.
    Mr. Shays. That sounds very logical.
    Dr. Krepinevich. But in the second Gulf war, the Army and 
quite frankly the Marine Corps is shifting to something they 
call non-linear warfare which there isn't a long front line, 
there isn't a forward area that is clearly delineated and a 
rear area. Even in the portion of major combat operations, you 
had splotches of U.S. troops all over Iraq. In those 
circumstances where there is a non-linear battlefield, where 
you don't have that clarity even in conventional operations, 
you are going to have to think differently about how you do a 
lot of things, including resupplying units, providing rear area 
security, all sorts of things. We saw that as early as the 
initial operations with the Fedayeen who are operating in the 
rear area, what traditionally would have been the rear area. 
This is part of the larger issue, what is our strategy, what is 
our doctrine for dealing with these kinds of situations. 
Obviously going back to what President Kennedy said, it is the 
new environment, a new strategy, a new doctrine and that leads 
to different kinds of forces and different kinds of equipment 
and different kinds of training.
    Mr. Shays. Thank you. General.
    General Alexander. There have been several instances where 
we had deployed Guard units to theater to perform Mission A in 
Kuwait and out of necessity, they were required to perform 
Mission B in Baghdad. The classic example is the infantry 
battalions from Florida. As a result of these rapidly changing 
mission sets, these units chose to do their job with a lot of 
creativity, thus the steel plates that are put on vehicles, the 
sandbagging and the like, but I believe that initially the idea 
was to rebuild Iraq in a peaceful setting and the insurgency 
tactic came on so fast that the OIF-1 units were not quite able 
to recover.
    Today, every effort is being made to ensure that those 
mistakes don't occur. I think the equipping strategy will in 
fact, if the resourcing continues, catch up. It is the training 
doctrine, the ability to do urban warfare at home station is 
what the challenge is going to be.
    Mr. Shays. Do you mind if I go another round or do you want 
to go now and I will come back? Let me just make a comment.
    The comment is this. The administration has wanted more 
authority, and I believe there has to be more legislative 
oversight when there is more authority but one of the things I 
am actually convinced of is, and this hearing just adds 
confirmation to it, when the story of Iraq is told one of the 
biggest criticisms will be that Congress didn't do proper 
oversight. For Mr. Murtha to go and discover that our troops 
didn't have proper vests, thank God he went there but we didn't 
know it before. Had we gone into Iraq last year and gone to the 
prisons, I am absolutely convinced we would have been told 
things. Had I not had a community meeting, I wouldn't have 
learned about the failure to provide the kind of protection on 
our Humvees given the mission we were asking you and others to 
do.
    My job as a Member of Congress is to make sure it is never 
a fair fight. I think I was deprived of the knowledge that 
would have been helpful. In other words, I want it never to be 
a fair fight. We are going to know that literally hundreds of 
Americans were killed, in my judgment, because we didn't give 
them in some cases the proper training, the proper equipment 
and so on. I never thought I would be saying that. I didn't 
think in this day and age that would be the case.
    I would like to ask more questions but we have time. Thank 
you.
    Mr. Schrock. We are glad to be joined by the gentlelady 
from California who I would like to recognize for any questions 
and comments she has, Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    First, I want to say to all of you thank you so much for 
the service to your country. We love you and we care about you. 
That is the reason why we are here, to be sure you have what 
you need to do your jobs on command. So what might come up in 
the form of a question is only because we care about you and we 
appreciate you.
    I too have been following exactly what you have been 
following. I do know someone who was in Iraq. He was a 
Reservist and he was at a community college and was called up. 
He was a Marine and he went over unprepared. He said they 
didn't have the Kevlar inside the clothing, they didn't have 
proper equipment. I have been hearing that families have had to 
purchase and outfit and in some cases send money for equipment.
    Let me ask Sergeant Neill, is that the case? Do you know if 
that is the case?
    Sergeant Neill. I can tell you, we bought our own vests 
before we left. We bought the level vests that police officers 
wear on the street. We knew we would be in a civilian 
environment, pretty much our teams would be by themselves, six 
or eight person teams. They bought their own vests and then 
additionally purchased the panels that go in the vests for 
additional coverage. We were prepared to do our job. Even if 
the military wasn't going to provide it, we knew what was out 
there and we got it.
    Ms. Watson. I feel that we let you down. Money was 
appropriated, why did it not get out to you.
    The other concern I have is that it should have been known 
beforehand that this battle would be fought in an urban 
environment. We watched shock and awe. The military in Iraq 
could not compete with that but I think they must have said we 
will catch you in the streets, we will catch you in the 
doorways because I was told by returning personnel that they 
never knew where the bullets were coming from and they never 
knew how to fight back. They just hit. So urban warfare is what 
you are experiencing at the current time.
    What kind of training was there prior to your detachment 
going into Iraq on how to be prepared for urban warfare?
    Colonel Novotny. I would like to address that. We designed 
a pretty extensive training plan for urban warfare. When my 
unit initially was going to be a quick deploying unit and we 
realized we had time to train, we coordinated for the facility 
at Fort Riley, it was blocked out for us. My NCOs led our 
soldiers through a training program from ground up, they 
covered everything from issuing and order in a mock environment 
to movement as an individual, movement as a team, movement as a 
platoon, how to clear buildings, how to defend. I was fortunate 
that we had 2 weeks of training in that facility and the reason 
for that is I felt there was a good possibility somewhere along 
the line that my unit may be engaged in a contact like that and 
we might have to perform the exact mission just as you 
described.
    Ms. Watson. I am wondering if your units are representative 
across the system. I am hearing a different system from those 
who have returned, that they certainly weren't prepared, 
particularly in a desert environment. I have had contact with 
some of the POWs and the story of how they got lost out in the 
desert and every sand dune looks like every other one and so 
they were ambushed and some were killed.
    My concern is have we done extensive planning and counter 
insurgency training because it looks like that is the way war 
is to come if we are going to be in the Middle East or other 
places, the Far East, would have to be fought. Are we planning 
ahead, are we giving adequate training, are we prepared? Anyone 
who would like to address that?
    Sergeant Neill. I don't think it was planned for when we 
first deployed but as we deployed and recognized the situation 
was changing and the people were adapting to our vehicle 
convoys, we changed what we were doing also. We instructed our 
soldiers in vehicle contact, how to take contact right, contact 
left, how to shoot at people they see firing at them, where 
they see fire coming from, the actual flashes, where they see 
smoke coming from, the actual smoke coming from weapons, where 
they see dust coming from the ground. Since we're in an 
environment where everything that moved caused dust to fly and 
move, if you couldn't see the people shooting at you, you could 
surely see one of those other things. Our job was to put down 
fire and move out of there unless we were disabled.
    Ms. Watson. Dr. Krepinevich, maybe you can add to that?
    Dr. Krepinevich. Yes, ma'am. As I mentioned in my 
testimony, the U.S. military has the world's best training 
infrastructure. However, it is a training infrastructure that 
is optimized principally for conventional warfare not counter 
insurgency. We, the U.S. military, for the last quarter of a 
century has essentially convinced itself we are not getting 
back into those kinds of conflicts. The military has had a lot 
of encouragement from the American people and the American 
political leadership. Right after Vietnam, the slogan was ``No 
More Vietnams,'' the 1990's was the decade of exit strategies 
and the 1980's, the Powell and Weinberger doctrines. So in a 
sense for a combination of reasons, we have a marvelous 
training infrastructure but it is not a training infrastructure 
that really is designed for a counter insurgency environment.
    As I mentioned earlier, it is not just the training 
facilities, it is a matter of doctrine having languished as 
well, a doctrine that as Sergeant O'Neill said, we train the 
way we expect to fight. If you don't expect to fight that way, 
you are not going to train that way. So it is also are we 
structured. Do we have the requisite skills not only at the 
individual level but at the unit level, the company level, the 
battalion level, the brigade level.
    Right now, of course, General Schoomaker is engaged in the 
process of restructuring the Army, including rerolling units, 
converting artillery men to military police and so on. This is 
going on in the active force and the Reserve force. It is 
laudable but it is also a reflection of the fact that in some 
respects we found ourselves behind the curve here playing catch 
up. As I mentioned, because insurgencies do tend to be 
protracted, I think if we are looking at accomplishing the 
kinds of goals the administration has set for us in Afghanistan 
and Iraq, we are looking at a long term conflict and probably 
in other parts of the world as well. Because of the enormous 
power of our military, we have driven enemies to insurgency, to 
terrorism and these forms of warfare.
    If we are going to be involved in this and we are in it for 
the long haul, the long hard slog that Secretary Rumsfeld talks 
about, then it is not just a matter of the kind of innovative 
approaches and quick fixes to training that these men are 
talking about, we also need to look more fundamentally at the 
doctrine we have for conducting these kinds of operations and 
what kind of training infrastructure we need to create to make 
sure that our soldiers and Marines get the right kind of 
training.
    Ms. Watson. Thank you so much for your comment.
    My questions, Mr. Chairman, should probably be addressed to 
the second panel but again, I want to let you know how much we 
appreciate your service.
    Thank you very much, Mr. Chairman.
    Mr. Schrock. Thank you, Ms. Watson.
    Mr. Shays.
    Mr. Shays. I know we need to get to the second panel but 
let me ask this because I am actually convinced we have the 
best trained and best equipped military in the world and the 
best experienced. In fact, because of our engagements, I am 
told there is nothing that gives you better training than the 
reality of live ammunition coming at you and the fear of death.
    I want to be clear on this. It strikes me that if you are a 
Reservist or National Guard, you have less time to train, and 
so you specialize in a particular mission but when you are sent 
off to battle, you may end up doing something different than 
your MOS. Is that a fair way to describe it or does someone 
need to qualify my view or would you agree with it?
    General Alexander. Based upon the comments from the field, 
that is in fact a reality. That is happening. Units are being 
deployed for a mission. In theater they are being rerolled to 
accomplish different missions.
    Mr. Shays. Let me ask, is it more likely that if you are 
active duty, that transition is not as big a challenge because 
you are training every day?
    General Alexander. I would say that perhaps it is a greater 
challenge for the Reserve components even though they are 
adjusting to it.
    Mr. Shays. Colonel, did you want to make a comment?
    Colonel. Novotny. Yes, sir. My primary mission in my 
battalion is to handle prisoners of war, civilian internees and 
detainees. When we actually hit ground in Iraq, our primary 
mission switched to force protection for the camp. While it is 
different, we were trained for that. Force protection was one 
of the critical subtasks that we identified well in advance of 
our mobilization that we needed to train on. We also had 
individuals who were trained on force protection before, we had 
sent people to school for force protection, we had people who 
had combat arms background and we were very fortunate to have 
engineers at our location to help with berming and entering 
protective environment force.
    Mr. Shays. Part of the purpose of this hearing was lessons 
learned and the capability of the military to adjust and learn 
and grow from experiences. So, for instance, you would have the 
Center for Army's lessons learned, I think that deals primarily 
with the training, it is a short term focus; you would have 
training and doctrine command which is more long term; you 
would have the rapid field initiative which would be short term 
dealing with equipment.
    Do any of the Reservists have an opportunity, or the 
National Guard, to interface in this process of being able to 
forward lessons learned? One of the complaints is that the 
Reservists and National Guard don't feel as much a part of this 
role, even though they have opinions.
    Sergeant Neill. Sir, we lesson learned the unit that came 
to replace us. We haven't lesson learned anybody else. We 
lesson learned the teams that replaced us. Lessons learned to 
everyone else hasn't happened yet but our training begins with 
individual team member selection. We select people to be on 
teams to do any job. We did a tactical job, they were prepared 
for it. What they weren't prepared for was the equipment 
shortage we faced and we didn't have the equipment the active 
duty had and we saw them with it.
    Mr. Shays. Let me go to lessons learned. Colonel, you are 
looking at me like I may be walking off a cliff here.
    Colonel Novotny. No, sir. Lessons learned were a two-way 
street. The information we provide up the chain, I felt went up 
and went through our active brigade, the Reserve Brigade that 
was above us and the information also came back down to us so 
that we could take the information that other people learned 
and apply it to our own tactics and doctrine we were currently 
employing in the field.
    Mr. Shays. Mr. Chairman, we could keep this panel here for 
a long time. Our next panel has waited a long time and I think 
we need to interact with them, but I want to thank you as well 
for being here today and thank your mom for doing her part as 
an American citizen and loving her son so much that she would 
have strangled her Congressman if he didn't take action.
    Mr. Schrock. Thank you, Mr. Chairman.
    Let me too thank you all for being here. Your testimony was 
very helpful. Your answers to the questions were very helpful. 
We thank you very much for what you have done for our country.
    Let me mention one more thing before we go to the next 
panel. We are all familiar with General Taguba's report that he 
did on Abu Ghraib prison and some of the problems and hopefully 
how we can solve some of those problems, but in that report, he 
mentions one battalion commander who did his job very well in 
the detention business, better than anybody else I would 
imagine and that one person was Lieutenant Colonel Steve 
Novotny who is with us today. I think we ought to thank him for 
that.
    [Applause.]
    Colonel Novotny. Thank you very much, sir.
    Mr. Schrock. May be they need you back--no, I don't want to 
say they need you back over there, your family won't like that 
very well but they need to take the lessons learned from you 
and apply them there. Thank you again.
    Thank you all very much.
    We will take a 3 or 4 minute break before the next panel.
    [Recess.]
    Mr. Schrock. Let me welcome the second panel. As you saw 
with the first panel, it is traditional that we swear folks, so 
if you will stand with me.
    [Witnesses sworn.]
    Mr. Shays [assuming Chair]. I would note for the record 
that the witnesses all responded in the affirmative.
    We are glad to have you all here today. As I told 
Lieutenant General Hanlon a minute ago, I think legally if he 
comes up here one more time, I will have to claim him as a 
dependent. I see all of you all the time and that is a good 
thing.
    We are happy to have today Lieutenant General Edward 
Hanlon, Commandant, Marine Corps Combat Development Command; 
Lieutenant General Roger C. Schultz, Director, Army National 
Guard; Lieutenant General James R. Helmly, Chief, Army Reserve; 
and Brigadier General Louis W. Weber, Director of Training, 
U.S. Army. We are glad to have you here and thank you very 
much.
    With that, I will turn the floor over to General Hanlon.

  STATEMENTS OF LIEUTENANT GENERAL EDWARD HANLON, COMMANDANT, 
  MARINE CORPS COMBAT DEVELOPMENT COMMAND; LIEUTENANT GENERAL 
  ROGER C. SCHULTZ, DIRECTOR, ARMY NATIONAL GUARD; LIEUTENANT 
  GENERAL JAMES R. HELMLY, CHIEF, ARMY RESERVE; AND BRIGADIER 
    GENERAL LOUIS W. WEBER, DIRECTOR OF TRAINING, U.S. ARMY

    General Hanlon. Thank you, Mr. Chairman. Thank you very 
much for the invitation to be here today.
    It is good to be back to the committee because I was here a 
few years ago when I had the opportunity to testify before one 
of the subcommittees here on some of the training encroachment 
hearings we had back in those days. I thank you for the help 
you gave us because as was said on the first panel, train the 
way we will fight, had it not been for the foresight of some of 
this committee, I am not so sure we would have made the gains 
we did in the last couple of years in that regard, so I want to 
thank you.
    I have some written notes here but I think what I am going 
to do with your permission is in the interest of time and to 
allow for more questions and answers, let me make a few 
comments off the cuff and I will turn it over to the other 
panel members.
    Staff Sergeant SanchezLopez I think basically said it all 
when he talked about his Reserve battalion that was called up 
and went off to I believe he said Afghanistan and later into 
Operation Iraqi Freedom. He made the comment that his battalion 
was trained and equipped very much like his active duty 
counterparts. I think it is very important you all understand 
that from the Marine Corps perspective because that is exactly 
how we treat our Reserve units. We don't make any distinction 
between how our Reserve units, whether they be ground, 
aviation, combat element or combat service support, how they 
are trained and equipped from their regular counterparts.
    All of you as Congressmen I am sure have Reserve units in 
your districts. I would invite you when you have a chance, if 
you haven't had a chance yet, to go down to your local Marine 
Reserve center some weekend when you are back in the district 
and go in and see what goes on in one of those Reserve units 
because you will find that embedded in each Reserve unit is an 
organization we call an I&I, instructor inspector who is an 
active duty cadre and their job is to make sure that Reserve 
unit is trained and equipped and ready to go to war when they 
are called up. The idea is that they are trained already, they 
simply get mobilized and they join their regular counterparts 
and off they go. That is the way we have been doing business in 
the Marine Corps going back 50 or 60 years.
    I think the proof is in the pudding because we take a look 
at the way the Reserve units performed in Operation Iraqi 
Freedom, Operation Enduring Freedom, you will see no 
distinction between them and their regular counterparts. In 
Desert Storm and Desert Shield, you saw the same thing. I 
always like to point out in the Korean War in defense of the 
Pusan perimeter, the first Marines that went in there, the 
first brigade that held the line when North Koreans were almost 
pushing us off peninsula were Marine Reservists who came in 
there and held the line. Many of the Marines that went across 
the seawall at Inchon just a few months later, were for the 
most part Reservists. So since 1950 to 2004, we really don't 
make a distinction between how we train and equip our Reserves 
and our regular Marines. Staff Sergeant SanchezLopez is a 
Reservist but he is no different from me in that regard in that 
we are both Marines.
    I also wanted to point out with you that one of the things 
that is very important to us are the lessons learned. We can 
talk about that in the Q&A, if you have any questions on how we 
do that.
    Sitting behind me is Colonel Phil Exner. Phil is my 
Director of Studies Analysis at Quantico. He will soon be 
leaving to take an appointment, a cushy appointment over in 
Brussels at NATO but for the last 3 years I have had him as the 
Director of our Lessons Learned Team where he was running our 
efforts in Afghanistan, a year ago in Iraq and currently the 
operations we have in Iraq in which his responsibility is to 
capture real time the lessons learned we are gathering from the 
Marines who fought the last 3 years and turn that very rapidly 
into tactics, techniques and procedures for the Marines today, 
whether Reserve or active duty. I wanted to bring Phil with me 
today so you could see him and if you have any particular 
questions, he is certainly available to answer any of those 
questions.
    I would simply say it is a pleasure to be here. I thank you 
for the chance to be here and I look forward to your questions.
    Thank you.
    [The prepared statement of General Hanlon follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shays. Thank you, General.
    General Schultz.
    General Schultz. Thank you.
    It is an honor for me to appear before you again here 
today. I want to express my appreciation for the support of our 
soldiers and the families to this committee personally. Simply 
said, your support is critical to our mission success. Today, 
the Guard has over 93,000 soldiers deployed in missions around 
the world and we take preparing these soldiers for their 
assigned duty very seriously. You have my pledge to always keep 
their well being in mind as we proceed with missions assigned 
to Army National Guard units.
    Our soldiers ask for so little, yet they carry the burden 
of our priorities and proudly serve this Nation. They are 
selfless to the person. I am proud of every one of them. Now to 
the focus of this hearing on combating terrorism. I share your 
interest and your concerns.
    In perspective, we have made progress. You know well that 
many of our soldiers were called to active duty on very short 
notice. Many were placed on duty in less than 2 weeks. Although 
the mobilization process was accomplished well ahead of 
anything outlined in our plans, we can still do better. To the 
credit of our soldiers and their leaders, our units assembled, 
deployed and performed their missions. To date, almost 60,000 
soldiers from the Army National Guard have been demobilized 
since the September 11 attacks but work remains.
    We are concentrating in two principal areas, equipping our 
units and training our soldiers. While progress is being made 
with our rapid fielding initiatives, you will not find us 
satisfied until our equipment shortages have been fully 
accomplished. While it took longer than we had planned, 
individual body armor has now been provided to all of our 
soldiers in the Afghanistan and Iraqi theaters. We continue to 
distribute up-armored and add-on armor systems to our wheeled 
vehicle fleet. So I end where I started. The real credit for 
our current condition goes to our soldiers. They are truly 
outstanding indeed. Our Nation's call, they have answered and 
we too owe them our very best.
    Thank you, Mr. Chairman.
    [The prepared statement of General Schultz follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shays. Thank you, General.
    General Helmly.
    General Helmly. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity and the privilege 
to testify on behalf of the 211,000 soldiers, civilian 
employees and families of the U.S. Army Reserve, an integral 
component of the world's greatest army, an army at war for a 
Nation at war.
    I am Ron Helmly, Chief of Army Reserve and an American 
soldier in your Army and exceptionally proud of it. I have a 
brief statement that I would ask be entered into the record.
    This is my first opportunity to address this subcommittee. 
As the Chief, Army Reserve, I am profoundly humbled and sobered 
by my responsibility for the readiness, training and welfare of 
our soldiers and families. Today as we speak nearly 60,000 Army 
Reserve soldiers are on active duty in Iraq, Kuwait, 
Afghanistan and the continental United States and elsewhere 
around the world as part of America's global war on terrorism.
    Since September 11, 2001, more than 100,000 Army Reserve 
soldiers have served on active duty as part of this global war 
on terrorism. Tragically, 38 Army Reserve soldiers have made 
the ultimate sacrifice in service to our Nation. We are deeply 
in their debt and honor their memories by our actions here 
today.
    Your invitation to testify comes at a time of profound and 
unprecedented change in challenge in the dynamics of our 
Nation's security environment. From the start, we have 
understood that this will be no brief campaign or a short war. 
It will be an enduring global war, a protracted war, a long 
struggle that lacks clear, well defined borders. Have no doubt, 
however, our soldiers understand and our fellow soldiers, 
airmen and Marines all understand it is in fact a war. It 
challenges our national will and our perseverance, it tries our 
patience and indeed our moral fiber.
    As we engage these enemies, we recognize that carrying out 
current missions is not in and of itself sufficient. The very 
forces that cause this war to be different have propelled the 
world into a period of unprecedented change and volatility. We 
live in a much changed world and we must change to confront it. 
We must simultaneously confront today's challenges while 
preparing for tomorrow's. The Army will maintain its 
nonnegotiable contract to right and win our Nation's wars as we 
change to become more strategically responsive and maintain our 
dominance at every point across the spectrum of military 
operations. The confluence of these dual challenges 
transforming while fighting and winning and preparing for 
future wars is the crux of our challenge today, transforming 
while at war.
    The Army Reserve is part of a public institution founded in 
law. Our mission and our responsibility comes from this law. I 
would note that the law does not say for big wars, for little 
wars, short or medium wars. It says whenever our Nation, our 
Army and our Armed Services require us, we are to provide 
trained units and qualified soldiers. We must change to 
continue fulfilling the mandate of that law while 
simultaneously perfecting and strengthening the quality force 
we have today.
    The Army Reserve is fully engaged in the global war on 
terrorism. Every day we are dealing with challenges to ensure 
our soldiers are properly trained, adequately equipped and 
competently led. We are making every effort to incorporate 
lessons learned from the soldiers facing threats every day to 
better prepare mobilizing and deploying soldiers to survive and 
win on a lethal, complex battlefield. Your attention to this 
issue should help us design and resource the Army Reserve for 
success.
    I would be pleased to answer any questions you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of General Helmly follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shays. Thank you very much.
    General Weber.
    General Weber. Thank you for having me today. I appreciate 
the opportunity to appear before you to discuss how the 
Department of the Army is incorporating lessons learned from 
operations in Iraq and Afghanistan into the training and 
equipping of our Reserve and National Guard units prior to 
deployment.
    The Army appreciates your continued support of the men and 
women who make up our great Army as we conduct operations 
around the globe. Thank you so much.
    As you know, the Reserve and National Guard components are 
integral to the Army and indispensable to a quality force. We 
cannot perform effectively without employing National Guard and 
Reserve forces. Accordingly, the Army is committed to serving 
all components by providing common doctrine, standard 
organizations, fielding and supporting equipment and shared 
opportunities for training and leader development.
    We can expect the situation in Iraq and Afghanistan to 
continue to challenge the persistence and perseverance of our 
soldiers deployed there. Our forces face an adaptive threat 
that will continue to fight from the shadows without regard for 
conventional norms of warfare and will seek ways to undermine 
our resolve and support. The continuing readiness and 
effectiveness of our forces in Iraq and Afghanistan depends in 
no small part upon our ability to analyze and quickly address 
lessons we learn there on a rapidly changing basis.
    We have expanded our available assets to identify, gather, 
categorize and analyze operational lessons learned and then to 
rapidly develop and disseminate products associated with those 
lessons learned. The Center for Army Lessons Learned [CALL], 
established at Fort Leavenworth, KS, plays the most central 
role in this process and is used as the central repository for 
lessons learned, observations and associated tactics techniques 
and procedures [TTP].
    Operational lessons learned are routinely disseminated 
immediately to units already employed in theater and to those 
preparing to deploy. Lessons learned are also disseminated 
appropriately throughout the institutional Army as you heard 
from the previous panel, and aggressively applied the 
institutional processes. A top priority for the U.S. Army's 
doctrine development resources is generating TTPs for forces 
based on lessons learned from Afghanistan and Iraq.
    Our training base schools, both active and Reserve, do a 
remarkable job of providing individual leaders but the 
foundation, knowledge and skills need to be adapted 
asymmetrically in today's complex, contemporary operating 
environment, an environment as we know where leaders at all 
levels from sergeant through the general officer ranks are 
faced with decisions that have significant impacts on the 
enemy, their units, mission success and the indigenous 
population.
    The competencies that our soldiers and leaders, the main 
benefactors of lessons learned, need to execute operations 
across the entire spectrum or develop further at the Army 
combat training centers. We work hard at incorporating TTPs in 
what we are learning into the scenarios and training at the 
CTCs as well as our home station and mobilization training 
sites. Further, the information age has also enhanced the 
ability for direct communications between personnel and have 
completed an operational rotation or are currently deployed and 
those who are preparing to deploy. Currently, soldiers are 
using direct e-mail and Web sites both official and unofficial 
sites to share information about recent experiences and 
informal lessons learned. Commanders and leaders at all levels 
have invested an interest in using every tool available to 
better prepare their units and soldiers.
    In terms of resources, I would like to briefly describe how 
the Army decides to provide resources to the force. The Army 
Strategic Planning Board is the principal vehicle we use to 
prioritize requirements and resources. It functions as an 
iterative and adaptive planning body to provide an integrating 
framework to organize and synchronize support for a global 
campaign. In order to support the regional combatant 
commanders, the ASPB recommends solutions to immediate 
requirements, anticipates intermediate needs and puts sound 
thought into future requirements to win this war but also to 
posture the Army for other future contingencies. Since its 
establishment, the ASPB has developed recommendations for and 
has tracked over 500 discreet tasks in support of combatant 
commanders. It has obligated over $5.5 billion to support the 
war on terrorism and has synchronized the Department of the 
Army's planning and execution. The ASPB is the vehicle that we 
use to synchronize the priorities and the requirements that 
come into the building and then determine the prioritization 
for resourcing those requirements.
    The IED Task Force led by Colonel Joe Votel I think 
provides and excellent example of how the Army quickly adapts 
to changing circumstances. This task force was chartered to 
adopt a holistic approach focused on intelligence, tactics, 
techniques and procedures in information ops in order to turn 
around the lessons learned associated with IEDs back into the 
field.
    This particular task force has made numerous 
recommendations for doctrinal changes, training and 
organization adaptations to assist in the response to the IED 
threat.
    In conclusion, I would like to say the Army process for 
capturing lessons learned and providing solutions to deployed 
and deploying forces is generally a great success story. As you 
heard, it is a daunting task but adaptive leaders at every 
level are identifying the solutions and making recommendations 
for improving training, doctrine and material solutions. We are 
committed to providing the best resources available to every 
component and the best training we can develop to properly 
prepare our force.
    Thank you and I look forward to responding to any questions 
you may have.
    [The prepared statement of General Weber follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shays. Thank you.
    I wanted to hear all of your testimony. I am going to be 
gone for about 5 minutes and give Ms. Watson the chair. I will 
be back shortly.
    Ms. Watson [assuming Chair]. I want to thank all of you for 
your testimony and your brevity. We will carry on in the 
absence of the Chair but we don't want to take you through a 
long ordeal. Our purpose here today is to find out how we can 
help and what it is that we need to pay attention to.
    I have heard, as many of you have heard, that the people 
involved in the atrocities at the prison were untrained. They 
had not had the experience, most of them were young, and 
therefore their decisionmaking ability was not quite shaped. 
Any one of you can answer but maybe we ought to start with 
General Helmly and find out what kind of training would have 
taken place, did it take place in this instance, or were the 
military police of the 372nd Co. of the 800th Brigade just 
thrown into this situation and told to act as guards when their 
training was to be prepared to fight a more conventional and 
traditional way? General Helmly.
    General Helmly. First of all, the 372nd Military Police Co. 
is in fact organized as what we call a combat support military 
police company. That means that its primary organization, 
training and equipping is for general purpose missions, 
principally route reconnaissance, armored reconnaissance, 
convoy escort, rear area protection. Its parent battalion at 
Abu Ghraib and the 800th MPW Brigade were organized, trained, 
equipped specifically for IR operations. As you heard on the 
last panel, Lieutenant Colonel Novotny commanded a sister 
battalion to the 320th which was a specialty prisoner of war, 
detainee internment unit, specifically organized, trained and 
equipped for that purpose. So the 372nd was not specifically 
organized, trained and equipped. However, as you heard the 
young military police soldier from the Connecticut National 
Guard describe, his unit was a combat support, military police 
company. He described the training that he received which for 
military police soldiers of any specialization is extensive 
regarding the handling, the treatment, the security of 
detainees and prisoners of war.
    I have reviewed the training of all three of those units 
involved. Prior to their mobilization, they did in fact receive 
training on the law of land warfare and Geneva Convention. At 
their mobilization stations as was described by Colonel Novotny 
they received additional training regarding Geneva Convention 
and I will tell you my view is that what we have witnessed is 
an abject failure of leadership and personal conduct. It is 
true there is an old Army axiom that a soldier never receives 
enough training and thus shortly after the report was briefed 
to me in February, I initiated a special inspection by our Army 
Reserve Command Inspector General of the training we received 
with emphasis on military police and military intelligence 
units across our force with emphasis on interrogation, detainee 
handling and security, leadership and ethical decisionmaking 
because I felt strongly and I feel strongly today that there 
was a fundamental lapse of leadership and ethical 
decisionmaking that went on in leadership channels and that 
lacked courage to stop these abuses.
    I accept that training needs to be improved, it should be 
improved. We will never get enough. We will emphasize more 
strongly in the days, weeks and months ahead across our Army, 
not just Army Reserve, training in the law of land warfare and 
handling of detainees, and so forth but I reject any notion 
that a lack of training led to abuses that are this horrendous 
and this devastating.
    Ms. Watson. Do you feel that this particular group of 
military police were adequately trained? Do you feel prior to 
even going this group had the kind of character that would be 
able on the spot to make the kind of decisions that we would 
hope our well trained personnel would make? We have heard this 
particular outrageous event described as an aberration. I have 
tried, I had to go home this weekend, I couldn't hardly get out 
of the airport because when they see us coming through with our 
little badges, that is why I took mine off, I didn't want to be 
identified. They stop us in security, they stopped us on the 
streets, what are you doing about this. So I am saying we are 
looking into it. We are finding the truth.
    Personally, I don't feel that the people who were involved 
did it on their own because what strikes me is how do they have 
the trained dogs right onsite if this was a flash reaction? 
They seemed to have all of the resources necessary, these ropes 
and duct tape and so on. Who supplied that for that kind of 
spontaneous, negligent reaction? So I am thinking did someone 
look the other way? I am going to repeat as I monitored the 
news what I heard and all of you have heard it is that those 
involved said they were directed by the contract interrogators 
and the military interrogators. So can you respond to how the 
resources got in their hands to do the atrocities that were 
committed and that we saw on film?
    General Helmly. The kinds of resources that you cited are 
commonplace. I think you understand we use those for a variety 
of purposes.
    Ms. Watson. The trained dogs too?
    General Helmly. We use trained military police working 
dogs, yes. Those are not used for prisoner abuse, they are 
there to detect mines, explosives, to walk with military 
police, the walking perimeter guards around the prisons at 
night. They are an excellent tool used by all the armed forces 
for security purposes. In this case, the dogs were misused 
rather like using a simple broom instead of its intended 
purpose to hit or to abuse someone. So the kinds of things you 
cited were misutilization of common resources.
    With regard to the word character, that in my judgment is 
the fundamental flaw. The Uniform Code of Military Justice 
provides an authorization for a soldier when they believe an 
order they have been given is illegal in nature to question 
that order. We had one simple specialist who had the courage to 
question an order and to report what he felt were abuses. That 
then led to this investigation with regard to the six or seven 
soldiers currently charged. There could be other charges 
brought for either administrative disciplinary action or 
further action under the Uniform Code of Military Justice. I 
would note that the investigations are not complete. General 
Taguba's investigation is complete, it has spawned others and 
further inquires are ongoing as a result of General Taguba's 
investigation. We will be relentless in determining how to 
prevent recurrences of this nature.
    Ms. Watson. Thank you very much, General.
    I am glad you mentioned General Taguba's report because in 
that report he found that the military police were never 
trained in interment operations and his conclusion is 
inconsistent with what you have just said to us.
    General Helmly. Yes, I think in that case he is referring 
to the 372nd Military Police Co. and I acknowledge that was a 
combat support military police unit, not specifically 
organized, trained and equipped for interment operations.
    Ms. Watson. I see. Are you saying that they were misused or 
misplaced, they should not have been there?
    General Helmly. No, I am not saying that at all. They were 
assigned there because there was a shortage of the specialty 
units, so they were assigned there. They are capable of 
fulfilling that role. We had other combat support military 
police units pressed into security duties for interment and 
detainee security and none of those units felt obliged, that we 
know of, to commit such atrocities.
    Ms. Watson. Apparently they were just substitute units that 
were put in there and they said they never had the interment 
operations training. I would think any person whose conscience 
was functioning would not commit the kind of acts they did. I 
don't know what is going on here.
    In terms of the dogs that are used and very well used and a 
necessary component as you survey and secure, can anyone go in 
and check out one of those dogs or do they have to go with the 
person who trained them, can people who are brought in at the 
last minute use those dogs efficiently and effectively, can 
they give the signals that would have the dogs sicced on a 
prisoner? How does that work?
    General Helmly. We call those military working dog teams 
because there is a human handler with the animal. They are 
trained by the Air Force at the same time at the same school 
and each of the Armed Services employs them as teams. I could 
not go out or you could not go out or another soldier not 
trained with that particular animal and cause the animal to 
perform its trained task.
    Ms. Watson. Then how did these military police have custody 
and access to those dogs and get those dogs to act the way they 
did? If they have to go out with somebody who has trained with 
them, then how did they get into the hands of the people who 
you saw in the pictures?
    General Helmly. We have military police working dog teams. 
These are military police soldiers trained as dog handlers with 
the dogs.
    Ms. Watson. So they knew exactly what they were doing?
    General Helmly. That could be attached to such a military 
police unit. As I noted, they are frequently used for external 
security, walking perimeter guard to detect people who would be 
trying to infiltrate or to sabotage these operations.
    Ms. Watson. Would you explain to the committee what the 
relationship is between the contract interrogators, the 
military interrogators and the military police, the 372nd?
    General Helmly. Candidly, I am not qualified to answer that 
question. I was not in command on the ground and in my 
position, I provide forces to the combatant commanders.
    Ms. Watson. I understand. Is there anyone on the panel who 
could respond? What we are trying to do here is to look at this 
and get to the truth so we can reorganize if we need to and we 
can correct the tremendous mistakes that were made. I want to 
know if anyone can respond, and maybe you can't, why the person 
who was in charge of the prison was told that she could not be 
around when interrogations were taking place and why someone 
did not go in and monitor what was going on? I also want to 
know why there were photographs taken of these violations? Can 
anyone hazard a response?
    Mr. Shays [resuming Chair]. Since the gentlelady is on her 
third 5 minutes, we will defer that question and allow that 
question to be answered, but I want to get back to the focus of 
this hearing and I want to be real clear about not losing what 
was said in the first panel.
    I found it pretty difficult to think that I sent men and 
women into battle who did not feel they were properly trained, 
who did not feel they had the proper equipment and I want to 
know how you reacted when you had someone say basically, we 
didn't even have enough ammunition. Walk me through that and 
have me understand how you reacted when you listened to the 
first panel. If we could start with you, General Helmly?
    General Hanlon. I think in listening to Staff Sergeant 
SanchezLopez's comments, I would like to think that those 
comments did not apply to any of the Marine units that were 
involved. Let me give you an example. All the Marine units that 
came back from Operation Iraqi Freedom from last year, and had 
returned by August 2003. We then found out this past November 
that we were going to have to go back into Iraq with a force of 
about 25,000 Marines, of which there would be a mix of regular 
and Reserve Marines. We made sure that all of those Marines, 
whether Reserve or regular, were properly equipped and properly 
trained for the mission they were going to.
    Ms. Watson, I know you are from the district right outside 
of Los Angeles. Not far down the road from you at Riverside, 
CA, there is the former air base called March Air Force Base. 
We went there and with the help of the base, took over what 
used to be the old housing area there and put together a 
special training facility so that every single battalion that 
was going to go back into Iraq, Reserve and regular, went 
through a special urban training environment to walk them 
through scenarios and vignettes that they could experience when 
they were in Iraq. This is where the efforts of Colonel Exner 
who I introduced earlier was so important because his team 
which was embedded and had gone forward into Iraq, were sending 
back to us the kinds of things we needed because we were 
relieving the 82nd Airborne Division. So we were pulling down 
from our Army colleagues the things they were learning, we were 
transferring that very rapidly to the training our Marines were 
getting. That group of Marines will be returning sometime in 
the August/September timeframe.
    Mr. Shays. General, let me say this to you. We have not had 
testimony that I am aware of, that Marines have said they were 
short on ammunition. This is, I think, frankly more a National 
Guard problem than maybe even a Reservist issue, so let us cut 
to the chase and maybe we can have that addressed. The Marines 
has its challenges but I guess that wasn't one of them.
    General Schultz. I am responsible for the Army National 
Guard, as you know. I was surprised to find out that we didn't 
have ammunition in theater. We have had spot shortages of 
ammunition here in the continental United States and General 
Weber can obviously get inside the detail, talk about the 
numbers and types of ammunition and so on. We have said as a 
priority units going to combat will have the preference for 
ammunition. So we have moved ammunition around the Guard, 
around some of our supply points so we can at a minimum prepare 
soldiers for their combat duty they are about to deploy to.
    In terms of training, I listened carefully to the first 
panel and take significance interest in the tone of the 
messages and the themes that were mentioned by the panel 
members. Every unit is certified by a team outside the Guard as 
we prepare to deploy units into combat. When Guard units don't 
satisfy minimum deployment standards, they don't deploy. We 
have changed out unit leadership, we have changed out unit 
commanders, held up the latest arrival dates to be certain that 
our units satisfy minimum deployment, meaning combat readiness 
standards. When they don't satisfy the standards, they don't 
deploy on the schedules. So I take very seriously the issue 
that our units were in theater and felt they weren't prepared 
because in my mind we had processes in place, systems in place, 
second opinion by a team outside the Guard channels to certify 
our units for deployment. What I learned from the first panel 
is we have some more work.
    Mr. Shays. Any other comments?
    General Helmly. Sometimes old bad habits die very hard. 
Training didn't start yesterday obviously, it started a long 
time ago, in the past, the first panel explained that the 
nature of the war we are fighting at the tactical level has 
changed, there is no secure rear area, we are fighting an enemy 
that is very adaptive and lethal and we found ourselves 
disorganized for it, soft skinned vehicles and not the right 
kind of weaponry, as cited in the first panel we did not have 
communications for individual truck drivers, and so forth, we 
were short night vision goggles. When we entered this war, our 
strategic guidance was that we were in a period of strategic 
pause, that we could take risks with near term readiness and 
invest in research and development for the farther out 
requirements.
    I am exceptionally proud of the fact that the Army 
leadership has grabbed hold of this. Our current chief has been 
nothing less than a bull dog in terms of rectifying, as General 
Schultz noted, the shortages of individual body armor, 
shortages of ammunition. General Weber can speak to the details 
but almost $1 billion in the past 6 months was put into 
ammunition production and shortages of up-armored Humvees.
    I will note though that it also requires an immense change 
in the way we think about things. Only in the last 2 years has 
Army Reserve Command training guidance focused our soldiers on 
the performance of warrior tasks in conjunction with their 
technical support tasks. In the past, the training guidance 
focused on technical training and no one really worried. I can 
go back in time where I have had soldiers tell me I didn't have 
training ammunition. I look at the allocation and the command 
didn't shoot its full allocation of training ammunition. That 
is because our leaders were not doing their job and training 
soldiers for war. So we have corrected that.
    I must tell you we have an immensely strong effort to train 
our soldiers and prepare them for close combat, all soldiers so 
that we do not repeat stories of 507th maintenance company 
again. That was a training failure of the first order. We do 
not intend to repeat those mistakes.
    Mr. Shays. Thank you. General Weber, if you would respond?
    General Weber. Last year I had the privilege of being 
Assistant Division Commander for Support for the 3rd Infantry 
Division during its fight up to Baghdad. I can tell you that 
you are never well enough equipped to do what you think you are 
going to have to do in the next war. In spite of our best 
efforts, in spite of what we would like to do, the fact of the 
matter is when it comes down to correct resourcing and applying 
the money to buy those resources and ensuring that your troops 
have those resources, those are very complex issues as you 
know.
    The 3rd Infantry Division in this case, all of our troops 
were not fully equipped with SAPI plates for example. With the 
limited amount of resources that were available to the 
division, we positioned those resources where we thought the 
threat was the greatest. We didn't have everything we needed. 
The truth of the matter is you go to war with what you have, 
you don't go to war with what you would like to have because 
sometimes it is not completely available. Up-armored Humvees, 
for example, we have a huge requirement for up-armored Humvees. 
It has grown over time. The current validated requirement in 
the theater is 4,454 up-armored Humvees. Currently we have 
3,139 that have been produced and positioned toward the 
theater.
    Part of our problem is the industrial base capabilities of 
our country to produce what we need. Because you apply 
resources in terms of money and funding to buy what you need 
does not imply that it is immediately available. This month 
alone, the production for up-armored Humvees will hit 220 
vehicles. We have been at war over a year. Some would argue 
that perhaps we need to take another look at our industrial 
base capabilities. That production rate will rise to 300 per 
month starting in July and with the current requirements, we 
plan on producing 300 vehicles a month through March 2005.
    The fact of the matter though is we don't have enough up-
armored Humvees today in the inventory to do what is required 
in the theater. As you heard earlier, SAPI plates and body 
armor has been taken care of but again, that took us time. The 
production capability was not there to get it to us when we 
needed it. One could argue we did not forecast well enough what 
we might have needed, but the current assumptions about how the 
war was going to be conducted and the assumptions we were using 
a year ago based on after operations have proven to be invalid 
to a certain extent we could argue and we have responded to 
that as best we could I think.
    Mr. Shays. I appreciate your honest answer. I knew they 
would be honest but candid answers. It will be very interesting 
when the story is told in the years to come what are the things 
that had unintended consequences. For instance, when we 
disbanded the government, the army and the police, in my five 
visits to Iraq, four of them with the military and outside the 
umbrella of the military, I had countless Iraqis tell us they 
would love to have guarded the hospitals and other sites. They 
also said there are bad people in the military and the police 
and in the government but most are very decent people. They 
would say to me, how would you have survived in Saddam's 
government, how would you have fed your family? That forced us 
to do things with our military.
    When I came from Algute in a taxi and we were late getting 
to the green zone, I saw three Humvees in front of us and I 
said to the taxi driver, follow them, they are clearing the 
path. The taxi driver said, I don't know how he said it but it 
was in his language, like are you crazy. I am haunted by it 
now, thinking were they patrolling with no armament in their 
Humvee and you could see the tension in their necks. The driver 
had his left hand on the steering wheel and his right hand with 
this rifle across his lap with it on the trigger. I am thinking 
it shouldn't be like that, it shouldn't have turned out this 
way. It makes me want to know if the so-called best practices, 
lessons learned and so on, all the lessons we are going to 
learn I hope we have a real good analysis of this.
    I will say again, I think one of the analyses should be you 
should be having more congressional oversight. There should 
have been Members of Congress walking that prison in September 
of last year. When I was in other places this time someone from 
Bremer's organization in the Babylon area said, Congressman, we 
only have seven people. I am supposed to have 100 and the 
Marines are leaving and the Poles are taking their place or 
someone else coming up to me and saying we don't have enough 
money, in September last year. These are things I could come 
back and raise questions. I am certain if you had members 
walking that prison, we would have seen maybe human waste being 
thrown at our troops and we would have raised questions about 
that but we would have someone come up and say, I am a cook, I 
don't know what I am doing here. I don't have the training that 
I need. That would have forced a dialog a lot sooner and we 
would have been able to break through the chain of command or 
somehow as you have all said, a failure of leadership. It is 
also a failure of Congress to not do its job.
    Ms. Watson, you have 10 minutes for any questions you want 
to go through. She had a question on the table.
    Ms. Watson. I want to get some ideas back from you. I don't 
understand the chain of command and what authority do the 
contract interrogators have. What is their relationship to the 
military personnel there and the military intelligence, those 
interrogators, what is their relationship to the Guard, to the 
MPs? Can someone respond?
    General Helmly. I don't know, as I was about to say 
earlier, what instructions were provided.
    Ms. Watson. I just want to know how does the chain of 
command work in that scenario?
    General Helmly. That is what I am explaining. I don't know 
what guidance was provided to the chain of command. I will tell 
you that I think all of us at this table are quite accustomed 
to working with contractors.
    Ms. Watson. Let me clarify my question because I am not 
being clear. I would like to know does a private interrogator, 
contractee interrogator have a relationship to the MPs and if 
so, what is that? Who would tell the general who was in charge 
of determent and the prisons what to do and what not to do in 
terms of the interrogation? Where in the chain of command does 
this take place?
    General Helmly. I don't feel qualified to answer that. I 
think General Taguba's investigation went into that. I will 
simply say that had I been in charge of that, I feel if I am in 
command, I am in full command and if you are a contractor or 
civilian employee, you work for me.
    Ms. Watson. That helps. If you were in charge of prisons, 
then you would be in full command. Could you and do you and can 
you go through at any time and inspect and monitor what is 
going on?
    General Helmly. I would have insisted upon that access and 
had I been denied that access by anyone, short of physical 
actions, I would have informed my superiors that they could no 
longer hold me accountable because if I am in command, I will 
go anyplace in the organization I wish to go.
    Ms. Watson. Thank you. Maybe Lieutenant General Hanlon can 
address that same question too. Can the civilian contractor 
order the MPs to do something?
    General Hanlon. I will answer that question by saying that 
I am deferring to my colleagues in the Army who probably have a 
bit more familiarity with that situation than I. I don't have 
any at all but I will tell you, and I think the General gave an 
excellent answer a second ago when he said I think it is safe 
to assume that any commander any place, any time, anywhere 
where you have civilian contractors working for you, in the 
mess hall much less interrogators, ultimately are responsible 
to you as the commander for the good order, discipline and the 
functioning of whatever their job is. So I thought his answer 
was very good but I can't give any more definition than that 
because I am really not familiar.
    Ms. Watson. That is acceptable to me. We are just trying to 
get some things clarified. I was interested in the chain of 
command.
    What obligations does the civilian-private contractor have 
when they come into say a prison to interrogate? Is there an 
obligation to report to whoever is in charge? Do they have to 
go through the personnel that is already there, the MPs? How 
does that work?
    General Helmly. Contractors are not independent operators. 
I think General Hanlon addressed that part. They sign a 
contract to perform tasks for the U.S. Government. We have 
contracting officers, technical representatives and contracting 
officers representatives. The COTRs, I have been one of those 
myself and within the terms of that contract, I always gave 
them guidance, direction and instruction and insisted upon 
reports from them, visited their workplace and I think all of 
us have done that, not in my case with interrogators but again, 
with the exception of the function being performed, I would not 
try to administer such a contract any differently than I do 
with contract employees who do staff work for us here in the 
Pentagon.
    Ms. Watson. Is it a usual thing for the intelligence 
interrogators, the contract or military, to say to the prison 
guards, the MPs, whoever, soften them up. Is this something 
that is said when they are preparing to go into a situation, 
soften them up, and who would say that, and would the military 
police have to respond accordingly?
    General Hanlon. I am not in any way shape or form trying to 
dodge your question but I am not an intel officer, I am not a 
military police officer, I run the Marine Corps Combat 
Development Command and there is no way I can begin to answer 
that question because I have no idea what the authorities were 
or any guidance given in that particular case.
    Ms. Watson. All right.
    General Schultz.
    General Schultz. Ms. Watson, I have been in the Army over 
41 years. I have not heard the term, never been associated with 
the use of that term. I also must clarify I am not a military 
police officer.
    General Helmly. I don't think any of us are trying to dodge 
your question but I believe the question is with any degree of 
clarity and accuracy, it is probably impossible for any of us 
to answer given the fact that none of us were there, none of us 
are military police and today do not run military police or 
military intelligence operations. I will simply say if someone 
instructed----
    Ms. Watson. Sir, I know you weren't there. What I am trying 
to find out and maybe somebody would come forward and let me 
know what the chain of command is in a prison setting. Who 
oversees, who orders people to do things?
    Mr. Shays. Could the gentlelady suspend just a second, so 
we understand? I want the gentlelady to be able to ask these 
questions but I want to understand the expertise of the 
witnesses we have to make sure we are not tasking them beyond 
their expertise.
    Ms. Watson. Chain of command.
    Mr. Shays. Chain of command is, I want to say, a very 
logical question that anyone should be able to ask. I just want 
to know in terms of prison guarding and so on, what expertise 
do you gentlemen bring to this issue just so we understand. 
Have you had those tasks during your time in the military? Who 
has so we know who to ask if any? Do any of you have that 
responsibility?
    General Weber. Sir, speaking for myself, no. I am an 
armored cavalryman by trade. I have very little to do with MPs 
and military intelligence.
    General Helmly. Sir, as Commander, I am responsible for the 
training of the U.S. Army Reserve but I have no direct 
expertise in detainee operations or interrogations.
    Mr. Shays. But in terms of making sure you have people 
trained, that would be the closest we have gotten so far.
    General Schultz and then I will let you get back to our 
questioning, just so we know.
    General Schultz. In our units, we have military police 
capabilities and we have soldiers in our subordinate chains of 
command that prepare them for their duty in theater including 
prison related work. I am not personally involved in the 
question you asked, however.
    Mr. Shays. General Hanlon.
    General Hanlon. In my past, I have been a base commanding 
general. As a base commanding general, I have had military 
police work for me for the good order and discipline of 
protecting the military base and we had a brig aboard the base 
which did normal functions for what brigs are designed for, but 
I have not had any experience at all in any kind of facility 
dealing with detainees or prisoners of war.
    Mr. Shays. I appreciate that you are trying to be helpful 
to Ms. Watson who is asking questions that all of us in 
Congress would like answers to. We are just trying to break the 
surface here and begin to understand. I am sorry, Ms. Watson. 
We will keep the clock running for you.
    Ms. Watson. I just have one or two more things. General 
Schultz, were there any Marine Reservists accused of shall I 
say violations within that prison setting?
    General Hanlon. You said General Schultz, did you mean 
General Hanlon?
    Ms. Watson. Lieutenant General Schultz.
    General Schultz. I am not familiar with any.
    Ms. Watson. General Hanlon.
    General Hanlon. Would you repeat that question?
    Ms. Watson. I understand that Marine Reservists have been 
accused of abuses of Iraqi prisoners. Are you aware that there 
have been some accused?
    General Hanlon. There were allegation from a year ago 
involving some Marines. My understanding is that all the cases 
are being adjudicated. In fact, I think in a couple of cases 
there are pending courts martial. Many of the charges were 
dismissed and I know each and every one of those cases has been 
under investigation. That is about all I know about it because 
it involved commands other than my own. My understanding is 
they have all been investigated and they are all being properly 
adjudicated.
    Ms. Watson. In this kind of situation, in a detention 
facility, who can command a Marine Reservist to treat prisoners 
one way or the other? Who is in direct charge of them?
    General Hanlon. You have a Marine, a rifleman, say he is a 
Lance Corporal and say this Lance Corporal is in a platoon in a 
company in a battalion in a regiment, so he has a chain of 
command. If he is a Lance Corporal, he will have a squad 
leader, a squad leader will have a platoon leader, a platoon 
leader will have a platoon commander, a platoon commander will 
have a company commander, a company commander will have a 
battalion commander, a battalion commander will have a 
regimental commander, so there is a set chain of command that 
Marine is responsible to every single day. If he is a Lance 
Corporal, he is probably reporting to a Corporal or to a 
Sergeant.
    Ms. Watson. In a detention facility?
    General Hanlon. In any facility. No matter where a Marine 
is located, he will have a boss.
    Ms. Watson. I want to focus on a detention facility, just 
say detention facility.
    General Hanlon. I don't know what that means, a detention 
facility. Are we talking like what?
    Ms. Watson. I am talking about the detention facility in 
question, a prison, interment wherever. Who can direct a Marine 
Reservist?
    General Hanlon. First of all, I would like to go back to 
something I said earlier.
    Ms. Watson. Let me ask you, can a contractor do that?
    General Hanlon. No, ma'am.
    Ms. Watson. Thank you. You have answered my question.
    General Hanlon. My understanding is that a Marine will 
always take his instructions from another Marine. I just want 
to say one thing, something I said in my opening comments. We 
don't make distinctions between Reservists and active duty 
Marine. A Marine is a Marine.
    Ms. Watson. OK. Very good. I appreciate your response and I 
will try to figure it out.
    General Hanlon. Thank you.
    Ms. Watson. That is it.
    Mr. Shays. Let me ask a question I have been very curious 
about. When I hear that mothers and fathers are buying 
protective vests for their children in Iraq, is it the same 
quality vest that you would see our own military have when they 
have their vest? Is it the same or is it something less than 
what the military could buy?
    General Schultz. Mr. Chairman, the cases I am familiar 
with, they will meet a police standard for police operations 
here in the continental United States but will not satisfy a 
U.S. military criteria. It is slightly different.
    Mr. Shays. Really what starts to happen is that if they 
have nothing, something is better than nothing but it doesn't 
in most cases meet the standard of the military?
    General Schultz. That is correct.
    Mr. Shays. First Sergeant Neill made four points. I would 
like to go through those points with you and get a response. He 
said, ``We have a shortage of warrant officers who are the 
officer team leaders. It is my belief that this shortage could 
be filled directly from the senior NCO ranks where soldiers are 
forced out of the Army because of age, time and grade and time 
and service.'' Do you have any response to that comment?
    General Schultz. Mr. Chairman, we have a shortage of 1,500 
warrant officers in the Army National Guard today. The First 
Sergeant's recommendation is the very issue we are working 
right now. That would be to take from our senior non-
commissioned officer ranks those soldiers that satisfy the 
skills to become warrant officers and they clearly could begin 
to fill those shortages that we have outlined here that come 
time of war, no doubt have to all be filled. So the point he 
raises, although he is an Army Reservist, applies to the Guard 
no doubt.
    Mr. Shays. This is his second point. ``Many years ago, 
motor sections, supply sections and communications sections 
were all moved from intelligence companies and sent to 
battalion level organization where their staffing was reduced 
and became ineffective. Maybe it is time to look at bringing 
them back to individual companies.'' What is your response to 
that?
    General Helmly. Mr. Chairman, that is a part of the 
modified table of organization and equipment, the 
organizational structure laid down by the Department of the 
Army. I would tell you that we are relooking every kind of 
organization in the Army under an action called modularizing 
our units. I have every confidence that will be relooked. 
Whether the Army will change that, I don't know but we are 
relooking the organizational structure of virtually all of our 
units.
    Mr. Shays. Under the heading of mobilization, he said, ``We 
were the prisoners at Fort Dix.'' What was he driving at?
    General Helmly. He was pointing out that the installation 
Commander stated soldiers mobilizing there would be restricted 
to the installation. That was done principally for safety and 
security. We found that some soldiers were attempting to take a 
day or an afternoon drive too far after 16-18 hours of training 
and we were incurring accidents. So many of the installation 
commanders said, you have to stay on the installation.
    Mr. Shays. How long a time before they were deployed were 
they at Fort Dix?
    General Helmly. I don't know for that particular unit. I 
will take that for the record and tell you how long they were 
at Fort Dix.
    [The information referred to follows:]

    The unit's processing at Fort Dix lasted 63 days.

    Mr. Shays. I have no comprehension. Are we talking a month 
or two or potentially many, many months?
    General Helmly. We had some units that were in OIF-1 that 
were stagnated in the flow of forces to the theater and spent 3 
to 4 months at a mobilization station. I will tell you in those 
instances most Mob Commanders then tried to take action to 
provide for passes and that kind of thing in a measured manner.
    Mr. Shays. I want to say I don't know your reaction but I 
thought the panel we had was a thoughtful group of individuals. 
I felt they care about their job, they care about the military 
and want it to work better. They just want people to listen and 
that is one of the reasons I appreciated that we had all four 
of you taking the time to listen. It means a lot to them and it 
means a lot to this committee that you did that.
    His fourth point was, ``We also had issues with doctrine 
which would not allow us to task sources of information.'' In 
other words, if an Iraqi told him something that was 
informative, he could gain passive information but he could not 
say, why don't you go back and see if you find this. It strikes 
me that it would have been potentially helpful to do that. What 
are the pros and cons of doing that and why didn't we allow it? 
Do you want to take a stab at it, General Hanlon?
    General Hanlon. I guess I did not hear that particular 
comment but I would only say to you that I would like to think 
since I am responsible for the doctrine in the Marine Corps and 
how we train Marines, I would like to think that under no 
circumstances would we ever have doctrine that would in any 
way, shape or form stifle the initiative of a Marine when it 
comes to getting a piece of information and acting on it. In 
fact, we encourage them to do just that.
    Mr. Shays. He was basically saying sources did provide 
information for a variety of reasons but money was not 
available as an incentive. ``We also had an issue with doctrine 
which would not allow us to task sources of information. We 
would suggest but not task. Sources do not need suggestions, 
they need directions. You ask them a question and tell them to 
come back with an answer.'' Does someone from the military want 
to take a shot?
    General Helmly. Sir, I think General Hanlon made an 
excellent point. We write doctrine to provide us guidance. 
Sometimes one finds that it is interpreted more as dogma by 
some and I would like to echo your remarks and agree with you. 
All of these service members we saw, Staff Sergeant 
SanchezLopez and the three Army soldiers, all the officers and 
non-commissioned officers and the enlisted soldier, all remind 
us of the immensely strong, capable, competent, professional 
force we all have and are very proud of. In this case, I took 
the First Sergeant's remarks to mean that he felt he probably 
had a shortage of money to pay informants from which he could 
get information. I believe we are tackling that. We understand, 
as our Chief has said, that in fact, we find ourselves fighting 
a network when we are organized as a hierarchy and we have 
found several times we have to go too far up in that hierarchy 
to get permissions. As we find those cases, we are rapidly 
trying to change those in order to adapt ourselves to this kind 
of battlefield.
    Mr. Shays. To give some credit to the Army, General 
Patrayus, when we met with him, he didn't wait for the CPA, he 
just started. He started to interact with Iraqis, he started to 
meet with them, he tried to understand their culture, he did a 
lot of things that I think Marines would probably take pride in 
as well, showing that kind of initiative and not being held 
back by the doctrine, probably taking a risk or two but I think 
made a very important contribution.
    General Weber. If I could comment, please?
    Mr. Shays. Yes, thank you.
    General Weber. What General Patrayus was doing was not any 
different than what any other unit was doing in Iraq 
immediately after the war. All of us in the 3rd Infantry 
Division were doing the same thing and if you go over today, 
battalion, brigade and even company commanders are doing 
exactly what you described. They are meeting with the people 
who are involved, they are trying to develop the intelligence 
community and information they need to fight the fight at their 
own levels and that is going on. That is what we do, that is 
how we adapt to the environment and that is what our unit 
commanders are responsible to do. I would like to highlight 
that is what our Army is all about, we take the current threat 
conditions, take the environment we are operating in and adjust 
to try to get in front of the enemies and the threat.
    Mr. Shays. Let me say this with all due respect, General 
Weber. Having been there five times, there are some people that 
did it better than others and he pushed the envelope a little 
further. I will tell you that I know our troops were during the 
day fixing up the schools and painting and cleaning them up and 
at night looking for the bad guys. I know that happened, so I 
want to agree with your general point, but what happened with 
General Patrayus is instantly there were people waiting for CPA 
to do some of what we said CPA should do. He just couldn't wait 
and I think he started the ball rolling a little sooner. I just 
want to say that to you because I met with a number of Army 
personnel and I was struck with the fact that he was pushing it 
a little bit more than others, but your point is 
extraordinarily valid.
    One more point of our first testifier. He said, ``Soldiers 
purchased much of their own equipment. They purchased cell 
phones that we used for communications, clothing, bug spray, 
CPS systems, handheld radios for in between vehicle 
communication, office supplies, tranformers, refrigerators and 
coolers. Additionally, they paid for NTB vehicle repairs and 
purchased parts for maintenance for which they were not 
reimbursed.'' It strikes me, I don't want to say it is 
embarrassing, but it is good there was this ingenuity, but it 
strikes me I am looking at myself and Congress and saying where 
did I drop the ball or where did other Members of Congress drop 
the ball that this happened? Is it that things simply got out 
of hand?
    I will tell you what I am wrestling with. I was chairing a 
Budget Committee hearing and we had one of the commanding 
officers accompany Mr. Wolfowitz or Mr. Wolfowitz was 
responding. I have great respect for Mr. Wolfowitz. It was 
mentioned that we might need 200,000 plus troops and it was 
immediately argued that we didn't need as many, but I am struck 
by the fact that we overworked our folks. They got very little 
sleep, they worked morning, noon and night and I am just struck 
by the fact that it seems to me things got out of hand.
    General Weber. If I could comment? You are familiar with 
the rapid fielding initiative and that was the result of the 
lessons learned early on from the OIF piece but also from the 
OEF lessons learned. What struck me about the previous panel 
was a lot of those comments were associated with the OIF-1 
units that granted had some shortages, had some problems, etc. 
What I find interesting today is with the OIF-2 rotation, every 
unit that was sent, in theory but we try to make it happen, was 
fielded with a basic set of equipment under the rapid fielding 
initiative for soldiers to take care of some of those problems 
you just identified.
    I would try to explain it to you that the Army has noticed 
a shortfall and a shortcoming and we have taken corrective 
action to try to field the soldier with the right equipment 
that he needs.
    Mr. Shays. I will just make a point to you. It would 
sometimes be good to learn this from the command rather than 
from the field. We were learning things from what soldiers were 
telling their loved ones back home and so on. I think we need 
to have a lot of respect for each other and our capability to 
deal with this. We were learning in some cases indirectly and I 
think that is what is so unsettling about this whole issue with 
the prisons.
    Let me close by asking you what is the point of the first 
panel that you agreed with most and what is the point you 
agreed with least? This isn't a quiz, I know you must react and 
say, I don't agree with that. If there wasn't anything said in 
the first panel you don't agree with, then I would like to know 
that or if you want to qualify it. I realize we have three Army 
personnel and one Marine, but is there anything you would like 
to comment about the first panel?
    General Schultz. The first panel outlined for me the 
urgency of the equipping issues. You know we have been working 
this for some months, years now and it has just come a little 
too slow to satisfy anyone, so I am reminded we just have to 
keep some issues on our list of priorities because we still 
have soldiers in harms way that are not as equipped as we would 
want them. This is after months of combat.
    Mr. Shays. Let me respond to that and have you react. Once 
of the challenges we know exists, because this committee has 
done work in this area, is that we have an inventory challenge. 
We can't do what K-Mart can do, we can't tell you where 
supplies are and so we sometimes have an overabundance of 
supplies, sometimes an under abundance. Was that part of the 
issue or was it we simply didn't have these supplies anywhere 
and was it in fact a money issue or just a backlog in orders, 
if you could respond to that?
    General Schultz. Initially, a little of both actually, a 
resourcing item initially and then we had a distribution 
problem with the body armor, probably had enough total armor 
systems in certain theaters and then we had sizing issues with 
some, so it was really resourcing. Then we had the industrial 
base that General Weber already talked about, so a combination 
of about three things.
    As I listened to that first panel, the one thing they left 
me with was they all departed their areas of operations leaving 
the units to follow on in better shape which makes me feel 
pretty good even though we have a lot of work yet.
    Mr. Shays. General Helmly.
    General Helmly. I would first of all highlight the remarks 
that Dr. Krepinevich made. I am mindful sometimes that it is 
difficult to appreciate the accuracy of the content of a 
problem if one does not appreciate the larger context within 
which it occurred. I thought Dr. Krepinevich gave an excellent 
outline of the immense change that the strategic context within 
which our armed forces operate has occurred. Beyond that, I 
found virtually everything that Colonel Novotny and the three 
enlisted and non-commissioned officers and the soldier spoke 
about to be compelling evidence of why we must be mindful this 
is the first extended duration conflict our Nation has fought 
with an all volunteer force because the immense quality of the 
Marine and the soldiers showed this committee today is proof 
positive that we must be careful as we operate and fight this 
war to maintain that force.
    General Weber. I think the comments about the equipping and 
the lessons learned were very positive. I think the Army is 
headed in the right direction. We have tried to identify some 
problems and problems were identified to us. In that sense, I 
think the previous panel was accurately reflecting the 
conditions that existed at the time they were deployed. I would 
hope if we went back with the OIF-2 units, some of those 
conditions would be different and our reactions to the OIF-1 
problems have been ameliorated if not resolved in some cases. I 
hope we are on the right track there.
    The only disagreement I would have is some of the comments 
previously about the combat training centers. The combat 
training centers have responded very quickly to the conditions 
and the environments that our troops are operating in both at 
JRTC at Fort Polk, NTC at Fort Irwin and CMTC at Hohenfels, 
Germany. If you went out and looked at those training centers, 
the operations groups and those responsible for training there 
are doing great things. They are working hard with the unit 
commanders who are deploying into these conditions to set the 
right training conditions and scenarios and environments for 
them to get the most out of the CTC event.
    Mr. Shays. Let me just ask you, because you brought up that 
issue and it is very related, the active and the Reserve 
components, do they interface in training? They interface on 
the battlefield but I am hearing that is one of the questions, 
that the Guard is rarely invited to participate in simulations 
in training opportunities with the active force.
    General Weber. I will defer to my colleagues but from my 
perspective, we try to do as much of that as time allows and as 
the timing of the events permit as well. In some conditions, we 
work very well. The civil affairs community is always embedded 
in our rotations normally if they are available but we try to 
do as best we can with that.
    General Schultz. We have an opportunity to train thousands 
of soldiers at both Fort Irwin and Fort Polk. Last year the 
schedule was simply so busy we couldn't send soldiers, we had 
them committed elsewhere, so there is an opportunity to train 
that we are not able to take advantage of right now.
    Mr. Shays. But you would say there is value clearly in 
having the Reservists in there?
    General Schultz. Absolutely.
    Mr. Shays. General Schultz, this is kind of a curiosity but 
I would like to it on the record. When the National Guard units 
leave their equipment behind, what do they go home to?
    General Schultz. In some cases, they don't have a whole lot 
when they get back to their local motor pools. What we are 
doing in the Army is moving equipment around, literally around 
the Army from the Reserve, from the Guard, from other places so 
that we reequip units with a minimum level of equipment 
initially. We have to redistribute equipment back into those 
motor pools where there is none.
    Mr. Shays. Why do you say between the Reserve and the 
Guard? If they are doing the same role, wouldn't you also do it 
from the active?
    General Schultz. Oh, yes. In fact, that is exactly our 
plan.
    Mr. Shays. General.
    General Hanlon. Going back to your original question. I 
think it was Dr. Krepinevich who talked a little bit about some 
of the lessons learned we have had over the last decade from 
the way the military used to train with the lessons we have 
picked up as a result of Iraq and the whole issue of urban 
environment. We have been concerned in the Marine Corps about 
fighting in cities for a long time. In fact, back in the 1996-
1997 timeframe, our warfighting lab started doing a number of 
experiments looking specifically at combat in the built up 
area. In fact, the training I mentioned to Ms. Watson that we 
do out of March Air Force Base is really a result of what we 
learned back in the late 1990's and how we need to train 
Marines to fight in the built up area.
    Fighting in a built up area is something you don't want to 
do if you have a choice but keeping in mind the latest 
statistic I think I heard is like 70 percent of the population 
in the world lives in built up areas, one can assume somewhere, 
someplace if you are going to get into a fight you could well 
be in an urban built up area. In fact, you remember probably 
our former Commandant, General Krulak used the famous line of 
the three block war in which we used to talk about the 
difficulties of training and fighting in an urban environment. 
So this is something we have been focusing on for a long time, 
it is something we continue to focus on, our warfighting lab 
down at Quantico, and one of the things I have talked to my 
Army counterparts about. There is an Army General by the name 
of General Burns who has the Army equivalent to my command 
which is TRADOC command, is the need for looking in the future 
at building joint MOC facilities that both soldiers and Marines 
can use that will give a state-of-the-art, large training area 
we can put our battalions through and both take advantage of 
that. We are looking at how we might build something like that, 
say a 29 Palms or Fort Irwin so that both organizations can 
take advantage of that.
    I will tell you something we focus on all the time and it 
drives a lot of the work we are doing on technology and special 
equipment to not only protect Marines fighting in an urban 
environment but to give them the fighting edge. I think you 
said in your comments earlier that you want to set it up so we 
always win.
    Mr. Shays. I said it should never be a fair fight.
    General Hanlon. It should never be a fair fight, a great 
line, and that is precisely what we are trying to do not only 
through our tactics and techniques and procedures but also with 
our technology. We are doing as much as we possibly can and 
that is why the lessons learned that we are garnering from the 
experiences over in Iraq right now, I think will pay huge 
dividends for us in the future.
    Mr. Shays. I will add that I think we owe it to our 
soldiers and our Marines, all our military, to help make sure 
they have some cultural sensitivity. Maybe I am speaking now as 
a Peace Corps volunteer, but it is hugely advantageous to 
understand the actions you take and how people react to them, 
just knowing their culture and so on. If in fact the 
battlefield will be in urban areas, there are a lot of women 
and children and others but it is nice to know their culture 
and how they react to things.
    General Hanlon. Absolutely right. That is part of the 
culturization and the training you try to give the Marines. 
When we were showing the House Armed Services Committee about a 
month ago how some of the new devices, the phrasalators that 
the Marines can carry, actually a little gadget where you can 
say something in English, hit a button and it will come back in 
the local dialect, things of that sort so you make sure you can 
communicate which is always the first step. Sir, your points 
are right on.
    Mr. Shays. Any last comments before we adjourn?
    [No response.]
    Mr. Shays. Let me just conclude by thanking all four of you 
and your staff and say this is really an effort of the 
subcommittee as well as the full committee. We are working 
together on this. Sometimes the full committee has a hearing 
and sometimes it is the subcommittee, but we are all working 
for the same basic cause. We would like our National Guard and 
Reservists to be paid on time and the salaries they are owed. 
We would like them to be better equipped. We would like the 
training to keep improving. We would like them not to be 
overworked. My big fear is that you are going to start to see 
spouses who are simply say, honey, I don't want you, and it may 
be a man to his wife who is in the military. We lost one young 
lady and we lost one young man in my district and I am 
concerned the spouses are going to say, don't sign up, don't 
reenlist. I hope we are thinking that one through too.
    Thank you all very much.
    With that, this hearing is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                 <all>

</pre></body></html>
